<html>
<title> - REFORMING THE WRIGHT AMENDMENT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





                     REFORMING THE WRIGHT AMENDMENT

=======================================================================

                                (109-89)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 12, 2006

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure









                    U.S. GOVERNMENT PRINTING OFFICE

30-659 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001











             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)



                        SUBCOMMITTEE ON AVIATION

                    JOHN L. MICA, Florida, Chairman

THOMAS E. PETRI, Wisconsin           JERRY F. COSTELLO, Illinois
HOWARD COBLE, North Carolina         LEONARD L. BOSWELL, Iowa
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
VERNON J. EHLERS, Michigan           ELEANOR HOLMES NORTON, District of 
SPENCER BACHUS, Alabama              Columbia
SUE W. KELLY, New York               CORRINE BROWN, Florida
RICHARD H. BAKER, Louisiana          EDDIE BERNICE JOHNSON, Texas
ROBERT W. NEY, Ohio                  JUANITA MILLENDER-McDONALD, 
FRANK A. LoBIONDO, New Jersey        California
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, JR., New Jersey
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
JOHN BOOZMAN, Arkansas               RICK LARSEN, Washington
JIM GERLACH, Pennsylvania            MICHAEL E. CAPUANO, Massachusetts
MARIO DIAZ-BALART, Florida           ANTHONY D. WEINER, New York
JON C. PORTER, Nevada                BEN CHANDLER, Kentucky
KENNY MARCHANT, Texas                RUSS CARNAHAN, Missouri
CHARLES W. DENT, Pennsylvania        JOHN T. SALAZAR, Colorado
TED POE, Texas                       NICK J. RAHALL II, West Virginia
JOHN R. `RANDY' KUHL, Jr., New       BOB FILNER, California
York, Vice-Chair                     JAMES L. OBERSTAR, Minnesota
LYNN A. WESTMORELAND, Georgia          (Ex Officio)
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)






















                                CONTENTS

                               TESTIMONY

                                                                   Page
 Arpey, Gerard, Chairman and CEO, American Airlines..............    30
 Barton, Hon. Joe, a Representative in Congress from Texas.......     9
 Burgess, Hon. Michael, a Representative in Congress from Texas..    18
 Cirillo, Michael, Vice President of System Operations, Air 
  Traffic Organization, Federal Aviation Administration..........    20
 Cox, Kevin, Chief Operating Officer and Senior Executive Vice 
  President, Dallas/Fort Worth International Airport.............    30
 Granger, Hon. Kay, a Representative in Congress from Texas......    14
Hall, Hon. Ralph, a Representative in Congress from Texas........    11
 Hensarling, Hon. Jeb, a Representative in Congress from Texas...    16
 Johnson, Hon. Sam, a Representative in Congress from Texas......    13
Kelleher, Herb, Chairman of the Board, Southwest Airlines........    30
 Miller, Hon. Laura, Mayor, City of Dallas, Texas................    30
 Moncrief, Hon. Mike, Mayor, City of Fort Worth, Texas...........    30

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

 Barton, Hon. Joe, of Texas......................................    58
Berkley, Hon. Shelley, of Nevada.................................    61
 Burgess, Hon. Michael, of Texas.................................    63
Carnahan, Hon. Russ, of Missouri.................................    65
Costello, Hon. Jerry F., of Illinois.............................    71
 Granger, Hon. Kay, of Texas.....................................    89
Hall, Hon. Ralph, of Texas.......................................    93
 Hensarling, Hon. Jeb, of Texas..................................    94
Johnson, Hon. Eddie Bernice, of Texas............................    98
Oberstar, Hon. James L., of Minnesota............................   228
Porter, Hon. Jon, of Nevada......................................   227

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Arpey, Gerard...................................................    55
 Cirillo, Michael................................................    66
 Cox, Kevin......................................................    73
Kelleher, Herb...................................................   196
 Miller, Hon. Laura..............................................   212
 Moncrief, Hon. Mike.............................................   222

                       SUBMISSION FOR THE RECORD

Johnson, Hon. Eddie Bernice, a Representative in Congress from 
  Texas:

  "Safety 1st at Love, Please", Sherry Jacobson, Dallas Morning 
    News, July 3, 2006, article..................................   107
  1968 Regional Airport Concurrent Bond Ordinance................   109
  Love Field Citizens Action Committee, Lori Palmer, statement...   179
  Fort Worth Hispanic Chamber of Commerce, Rosa Navejar, July 10, 
    2006, letter.................................................   192
  Fort Worth Metropolitan Black Chamber of Commerce, Monte 
    Elliott, Chairman, and Devoyd Jennings, President and CEO, 
    July 10, 2006, letter........................................   193
  Greater Dallas Asian American Chamber of Commerce, Les Tanaka, 
    Executive Director, July 11, 2006, letter....................   194
  American Indian Chamber of Commerce of Texas, Gene Bloomfield, 
    President of the Board, Bob Gentry, Board Secretary, and 
    Shirley Hankins, 1st Vice President, July 11, 2006, letter...   195

                        ADDITIONS TO THE RECORD

Bynum, Drue, Grayson County Judge Elect, letter, July 11, 2006...   233
City of Dallas, City of Fort Worth, Southwest Airlines, Co., 
  American Airlines, Inc., and DFW International Airport, 
  Contract incorporating the substance of the terms of the June 
  15, 2006, joint statement between the parties to resolve the 
  "Wright Amendment" Issues......................................   234
City of Denison, Hon. Robert Brady, Mayor, letter, June 29, 2006.   245
City of Denton, Hon. Perry McNeill, Mayor, letter, July 12, 2006.   246
City of Greenville, Karen Daly, City Manager, letter and 
  resolution, July 12, 2006......................................   248
City of Sherman, Hon. Bill Magers, Mayor, letter, June 30, 2006, 
  letter and resolution, July 11, 2006, and accompanying letters 
  from Curt Hughes and Joe N. Smith, Sherman Council Members.....   251
Collin County Regional Airport, John Sowerby, Chairman, letter, 
  June 20, 2006..................................................   257
Dallas Business Journal, "Love Betrayed," June 23, 2006..........   258
Dallas Business Journal, "Wright Questions", July 7, 2006........   259
Dallas Morning News, "Audit Finds Gains in Aviation Department", 
  Dave Levinthal, July 1, 2006...................................   260
Dallas Morning News, "Council Raises Love Landing Fee", Emily 
  Ramshaw, February 23, 2006.....................................   262
Fort Worth Chamber of Commerce, Bill Thornton, President and CEO, 
  letter, July 11, 2006..........................................   264
Friends of Love Field, William H. Foster, III, letter, July 11, 
  2006...........................................................   265
Grayson County Airport, Mike Shahan, Airport Director, letter, 
  June 28, 2006..................................................   269
Greenville Chamber Convention & Visitors Bureau, statement.......   270
Hlavenka, Denice, State Farm Insurance Agent, Pottsboro, Texas, 
  letter, July 11, 2006..........................................   271
JetBlue, David Neeleman, CEO, statement..........................   272
Lippe & Associates, Emil Lippe, Jr., letter, July 11, 2006.......   286
McGraw, Tim, County Judge, Grayson, Texas, letter and Resolution, 
  June 28, 2006..................................................   289
McHorse, Susan, President, Pottsboro Area Chamber of Commerce, 
  Resolution.....................................................   291
McKinney Chamber of Commerce, Robert S. Clark, Chairman, letter, 
  June 20, 2006..................................................   293
McKinney Economic Development Corporation, Ray Ricchi, Chairman, 
  letter, Jume 30, 2006..........................................   294
Microeconomic Consulting & research Associates, Inc., (MiCRA), 
  Frederick R. Warren-Boulton, PhD., Principal, letter, July 11, 
  2006...........................................................   295
North Texas Commission, Dan S. Petty, President and CEO, 
  statement......................................................   301
Self, Keith, Collin County jundge (Elect), letter, June 20, 2006.   304
University of North Texas, M. Theodore Farris II C.T.L. PhD., 
  Associate Professor, Director of Logistics & Supply Chain 
  management Programs, Department of Logistics and Marketing, 
  letter, July 10, 2006..........................................   306
Whitfield, Hon. Bill, Mayor, City of McKinney, Texas, statement 
  and letter, June 20, 2006......................................   310
























 
                     REFORMING THE WRIGHT AMENDMENT

                              ----------                              


                        Wednesday, July 12, 2006

       House of Representatives, Subcommittee on Aviation, 
Committee on Transportation and Infrastructure, Washington, 
                                                       D.C.
    The subcommittee met, pursuant to call, at 2:02 p.m., in 
room 2167, Rayburn House Office Building, Hon. John L. Mica 
[Chairman of the subcommittee] Presiding.
    Mr. Mica. Good afternoon. I would like to call this hearing 
of the House Aviation Subcommittee to order. Welcome everybody 
here today. Today the subcommittee will hear testimony about 
the efforts to reform the Wright amendment. That is the subject 
of our hearing. The order of business will be opening 
statements from members of the subcommittee, and then we will 
hear from a panel of Members of Congress who are interested in 
today's subject. Most of them are from Texas, then we have a 
second panel and a third panel, so a full schedule today. With 
those comments, and let me say also, if anyone would like to 
add testimony to the record of this hearing, they can do so 
through the Chair at the request of the committee, and Mr. 
Costello moves that we keep the record open for a period of 2 
weeks. Without objection so ordered.
    So we welcome members and others who have comments they 
want immediate part of the official proceedings to be included 
through request of the Chair. So I will start the proceedings, 
and I have got a hopefully brief statement and then we will 
yield to other members. Today our subcommittee will hear 
testimony on a locally initiated and locally approved so-called 
agreement that seeks to change and eventually proposes to 
eliminate the long-standing Wright amendment. As most of us 
know, the Wright amendment has restricted commercial air 
passenger service out of Dallas Love Field for now some 3 
decades. Today we will examine the terms of a June 15 
compromise reached by the cities of Dallas and Fort Worth 
Texas, and also hear from the affected airlines, American 
Airlines and Southwest Airlines, which, among other things, you 
will find will lift existing geographic restrictions on 
commercial air service at Love Field after some 8 years, and 
that, I think, stretches out to 2014. The Wright amendment, as 
modified by Congress over the years, currently restricts 
commercial air service out of Love Field to cities in Texas and 
some 8 surrounding States. Enacted in 1979, the Wright 
amendment was essentially a legislative compromise crafted by 
the cities of Dallas and Fort Worth Texas and Fort Worth 
International Airport, DFW, Southwest Airlines, and others.
    The Wright amendment was intended to end a long-standing 
legal dispute over Southwest's desire to provide inner State 
service out of Love Field, and at the same time, help spur 
growth at the then new regional airport DFW. In my 13 years in 
Congress, I have been a strong advocate and defender of public 
policy that promotes free markets and economic deregulation. I 
have long believed that the Wright amendment, along with other 
existing barriers should be repealed. These types of 
restrictions, in my opinion, constitute undue Federal 
interference with the market's ability to reflect consumer 
preferences. However, because the Wright amendment was locally 
generated many years ago in a different time and circumstances, 
it is fitting that it is unraveling now as being generated in a 
different time and under different circumstances by a locally 
generated agreement, and this is tough, especially for Members 
of Congress, to bring agreements before us and have us try to 
sort of divide the pie up and the baby, so to speak, and we are 
pleased that there has been these generations from the local 
level of an agreement.
    It is clearly in the best interest of consumers for the 
invisible hands of the marketplace, not the heavy hands of 
Congress or the Federal bureaucrats, to set air fares and 
service options. I believe we should remove this barrier as 
soon as we can, and we should not stop just with what we are 
doing today. As part of next year's FAA reauthorization 
legislation, we should address other onerous anti competitive 
service restrictions that are currently on the books and 
eliminate any remaining Federal laws and regulations that 
prohibit airlines from serving the routes sought by competitive 
carriers and the travelling public. As I suggested earlier, I 
prefer to see the Wright amendment repealed immediately. 
However, the political reality is that without the Love Field, 
the proposal that is coming forth today and being considered 
here today, the 35-year-old Cold War waged by the affected 
cities, airlines and communities will continue indefinitely, 
and that is something we do not want.
    By ultimately eliminating one of the most significant 
remaining barriers to domestic aviation competition albeit some 
8 years, the Wright amendment compromise could help set the 
stage for complete deregulation of our domestic aviation 
system, which would be for the benefit of consumers and 
community across the country. Before legislation to implement 
some of the terms of the agreement can be crafted, it is 
incumbent upon this panel to ensure that the safety 
implications of any increased operations in the air space 
around Love Field and DFW airports is also addressed. I must 
point out that some have suggested this agreement only benefits 
two airlines and could be interpreted as somewhat anti 
competitive. I look forward to hearing from our witnesses 
today, and I think it is appropriate that we have a full open 
hearing on all of these issues, and I would like to yield to 
our ranking member, Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you and I welcome our 
witnesses today, our colleagues and other witnesses who will be 
testifying here at this hearing. Mr. Chairman, I will be brief. 
I will submit my statement for the record. As I said, we have a 
number of witnesses, so I am hoping that members on our side 
will be brief as well and submit their full statement for the 
record.
    Mr. Chairman, I will not go over the history of the Wright 
amendment. We all know how it came about with a 1979 agreement 
between the cities of Dallas and Fort Worth. Since then, the 
Wright amendment at the time was a logical step in my opinion 
when enact in 1979 to bring stability to the north Texas air 
market. Further, it allowed southwest to carve a niche at Love 
Field, while American built, its hub at Dallas Fort Worth. I 
have supported the Wright amendment as the proper way to 
enhance the Dallas Fort Worth growth and development. The 
airport, in turn, has done its part by fueling the regional 
economy.
    However, today, Dallas Fort Worth is far from a small 
regional airport. As an international airport, its influence is 
far reaching and has become a major player in markets that 
other airlines could not serve from Love Field. As a result, 
for many years, people have sought to repeal the Wright 
amendment. But it has been my belief that if we were going to 
consider changes to the Wright amendment, that it should come 
from local officials at the local level, from mayors, county 
officials, and other interested parties.
    And if they, in fact, reached an agreement then and only 
then should Congress become involved. The piecemeal approach 
that we have seen in the past for years with certain States 
being exempted or repealed from the Wright amendment, in my 
judgment, has been ineffective and is poor public policy.
    On June 15, the parties that we will hear from today 
reached an agreement. They have all agreed to seek full repeal 
of the Wright amendment with several conditions. Soon after 
Chairman Young, Mr. Oberstar, yourself, Mr. Chairman, and other 
members of this subcommittee had the opportunity to sit down 
with our colleagues from Texas and other local elected 
officials and others to be briefed on the agreement.
    This is a significant compromise, and I think as our friend 
Herb Kellaher said it at our briefing, he said if we can come 
together all of these parties and reach an agreement, surely we 
can achieve world peace. I want to tell you that I am pleased 
that we are following regular order, that we are going through 
the process of this hearing today, going through the 
authorizing process. There are many who have criticized the 
Wright amendment for restraining free market competition. I 
have heard from others who believe that this new agreement 
poses similar competitive hurdles.
    I am interested in hearing from our witnesses and their 
responses to those concerns about any restrictive hurdles on 
competition. Further, I know that our colleagues, Mr. Oberstar, 
who has been involved with the Wright amendment since the very 
first day it was enacted, has major concerns about the safety 
aspect of this agreement and I am sure that we will hear from 
him concerning those concerns as far as safety is concerned in 
the agreement. And I thank you once again, Mr. Chairman, for 
calling this hearing and look forward to hearing from our 
witnesses.
    Mr. Mica. Thank you, Mr. Costello.
    Mr. Duncan.
    Mr. Duncan. Thank you very much, Mr. Chairman, and thank 
you for calling this hearing and bringing everyone together. 
This is an important step in this process. Mr. Costello just 
mentioned that Mr. Oberstar goes back to the very beginning of 
this. I do not go back nearly that far, but I have been on this 
subcommittee for 18 years, and in all that time, I have had 
almost every years discussions or meetings about the Wright 
amendment. In fact, just a few weeks ago, Mr. Kellaher came to 
my office and we had a very fine meeting I thought and I told 
him at that time, I hope some type of a compromise could be 
reached. So I am very encouraged by being to the point where we 
are today.
    In no significant legislation does anyone get everything 
that they want or desire, but it seems that people are being a 
little more reasonable now than perhaps at any time before 
this, and I will say that my own major airport in Knoxville 
that has had concerns about this all along has told me that 
they support the agreement, at least as far as it goes to this 
point.
    So I just wanted to be very brief in my comments and say 
that I commend everyone who has worked so hard to help us reach 
what appears to be a compromise that is acceptable to a great 
majority of the people, but we will listen to any concerns that 
anyone has and see if this agreement needs to be tweaked or 
modified in some way. But I thank you for calling this hearing 
and I look forward to hearing the witnesses. Thank you.
    Mr. Mica. Thank you, Mr. Duncan. One of those affected from 
Texas, Mrs. Bernice Johnson, a senior member of our panel.
    Ms. Johnson of Texas. Thank you, Mr. Chairman, and thank 
you, Mr. Ranking Member and chairman of the subcommittee, and 
all of those who are present. In addition to your 
representative subcommittee staff, my staff and the Senate 
staff of Senator Hutchinson have been working continually 
attempting to get this legislation done. In using the 
instructions of the agreement, this is very, very important to 
the north Texas area, and we appreciate all the courtesies that 
have been extended. Of course, less than a month ago, the city 
of Dallas, city of Fort Worth, Southwest Airlines, American 
Airlines, and DFW International Airport, reached an agreement 
to resolve long-standing issues regarding the Wright amendment.
    As you know, the Wright amendment imposes long haul flight 
restrictions to and from Dallas Love Field airport locate 
within the heart of my Congressional district. Of course, the 
original agreement said it would phase out. That was what was 
agreed to between the cities of Dallas and Fort Worth in the 
beginning so they were doing pretty well to be flying at all 
because of the Wright amendment. But the agreement marks an 
important milestone as efforts to repeal the restrictions over 
the past decades has served as a major points of contention in 
the north Texas stake holders.
    And I know, Mr. Subcommittee Chair, that I have always 
known your attitude about this Wright amendment, so I am glad 
it didn't come before you, but we had it blocked at the other 
end. To have all the aforementioned entities in solidarity 
behind this amendment that ultimately lifts long haul flight 
restrictions in Dallas Love Field is nothing really short of 
amazing.
    As my north Texas colleagues will elaborate on many of the 
key aspects of the agreement, I will not be repetitive. 
However, I would like to impress upon the following, my fellow 
subcommittee members. It is important to note that the Wright 
amendment was the direct result of a community-crafted 
compromise between Dallas, Fort Worth regarding two north Texas 
airports. 32 years ago, north Texas, upon the recommendation of 
the Civil Aeronautics Board, decided that DFW airport would be 
the region's primary travel investment. This decision is 
captured in the 1968 Regional Airport Concurrent Bond Ordinance 
adopted by the cities of Dallas and Fort Worth. I will ask 
unanimous consent to enter that into the record.
    At this time, Mr. Chairman, I ask you also for unanimous 
consent to enter some other correspondence here from various 
chambers that are supporting this agreement.
    Mr. Mica. Without objection so ordered.
    Ms. Johnson of Texas. Thank you. I will forego most of my 
written testimony and ask unanimous consent to put it in the 
record. I support the agreement. I support the agreement 
because I think that it has been made by the proper entities 
involved. It requires give and take. I doubt if any of the 
stakeholders got all that they wanted, but that is what an 
agreement and a compromise is and those of us who sit here know 
that. So many of the home owners and constituents groups that 
reside within the Love Field area also support the agreement, 
and I am going to ask, Mr. Chairman, unanimous consent to enter 
the written testimony submitted by Miss Laurie Palmer on behalf 
of the Love Field Citizens Action Committee.
    Mr. Mica. Without objection so ordered.
    Ms. Johnson of Texas. It is a coalition of residents and 
neighborhoods in the Love Field impact area. The organization 
was established in 1980 to address the airport's adverse 
environmental impact on the large and densely populated 
community that surrounds the airport. Also, there are many 
schools in the area, and I think that as long as we address the 
safety, the historical member of this committee has made that a 
number one concern, and it is mine as well, and I think that we 
will have language that will meet the guidelines of the FAA.
    So I am hoping that all of us would listen attentively, and 
then next week when we have the markup, hopefully it will be 
something we all can support. Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentlewoman. We will now hear from 
another distinguished member of our panel, a gentleman from 
Texas, and that is Mr. Marchant.
    Mr. Marchant. Thank you, Mr. Chairman. We appreciate the 
fact that you are taking this bill in regular order, and very 
much appreciate the fact that you have expedited this hearing 
to accommodate us. Thank you to the mayors for being here today 
and the members of the north Texas community, the debate over 
the Wright amendment and its repeal in this committee has been 
a great concern in my district.
    My district is basically composed of the Dallas Fort Worth 
International Airport and the surrounding towns and cities. 
American Airlines supports 7,300 jobs in my district. The 
airport itself supports 268,000 jobs in the greater Dallas Fort 
Worth area. The metroplex depends very heavily on DFW Airport 
as does my district. Therefore, it should come as no surprise 
to you today that this is the number one business issue in 
district 24. The debate has put airline against airline, 
airport against airport, and city against city and even split 
the opinions of our very close-knit north Texas delegation.
    Since elected to Congress a year ago, a year and a half 
ago, and up until this agreement was reached, I have been 
firmly in favor of the keeping the Wright amendment in place. 
However, I have also stated that if we are going to come to an 
agreement on any change to the Wright amendment, it should be 
worked out on a local level. Due to the hard work of the mayors 
of Dallas and Fort Worth and along with the elected officials 
and business leaders that are here that will testify later 
today, the agreement has been presented to Congress and has my 
support.
    I believe this agreement is a good compromise between the 
stakeholders. All parties gave some ground on all issues, and 
all parties have something to lose if they break the agreement. 
In a word, this agreement is balanced. The fact that this 
agreement is balanced is a positive in that it encourage all 
parties involved with the two airports to support it. However, 
the flip side of this is if one cog in the machine is moved or 
taken out of place by Congress, the whole agreement is in 
jeopardy.
    Hopefully very soon, identical bills mirroring the 
agreement to repeal the Wright amendment will go to the House 
and Senate. I have no doubt that every step along the way, 
attempts will be made to change these bills. I would like to 
take this opportunity to urge the Members of Congress to 
respect the agreement as it has been reached and allow these 
bills to become law without becoming significantly changed. 
Only then will we be able to put this debate behind in our 
area.
    Mr. Chairman, thank you for the opportunity to give a 
statement, but I will have to say that in the last 2 days, I 
have had several meetings, and it appears that there has been 
one issue that has surfaced that we as a north Texas delegation 
have not been able to discuss, and it is the 80-mile rule. And 
I am looking forward to the testimony today to help me as a 
committee member clarify the impact of the 80-mile rule. Thank 
you.
    Mr. Mica. Thank you. Mr. Holden from Pennsylvania.
    Mr. Holden. Thank you. I thank you and the ranking member 
for having this hearing today, and I want to commend our 
colleagues sitting before us today for coming to this agreement 
regarding the permanent rules at Love Field. With that said, I 
do have some concerns, Mr. Chairman. There are only three 
airports with perimeter rules, Washington National, LaGuardia 
and Love Field. US Airways, one of our Nation's leading 
airlines, had one of the perimeter rules at National and 
LaGuardia removed for years, and have long urged that the issue 
of perimeters be dealt with at one time.
    However, here we are suddenly having Congress about to 
alter conditions for Love Field only removing a barrier on 
ticketing for another of our Nation's leading airlines, 
Southwest, and setting a time for the abolishment of the 
perimeter rule and tearing down of some gates. The perimeter 
rule at Washington National has long been a problem for US 
Airways, and I ask the chairman to consider, as we move 
forward, in trying to help our colleagues at Love Field that we 
consider the perimeter rules at Washington National and 
LaGuardia as well. Thank you, Mr. Chairman, I yield back.
    Mr. Mica. Thank you, Mr. Ehlers.
    Mr. Ehlers. Thank you. Mr. Chairman, when I first arrived 
in the Congress 12 years ago, I learned two things, and one is 
never get crosswise with a bunch of Texans, and secondly, that 
the Wright amendment is a very strange document. It only makes 
sense in the context of the times, but probably should never 
have been adopted. In spite of the first rule, I am still going 
to speak up and say I think this agreement is a major problem.
    Well, let me add another principal that I have, and that is 
to never interfere with free enterprise unless you can do it in 
a totally fair way with all parties involved. The proposal, as 
I read it, is not totally fair in all ways. It favors some 
airlines over other airlines, and my colleague from 
Pennsylvania just said basically the same thing. I think we 
have to proceed very, very carefully and very deliberatively on 
this proposal and examine the ramifications beyond Texas, 
beyond Love Field, beyond Dallas Fort Worth Airport.
    It is a complex issue that is going to affect several 
different airlines frankly in a negative way as a result of the 
way the agreement is formulated and written, and I certainly 
want very thorough and complete examination of all the 
implications of this before we proceed. Maybe he can be 
persuaded, but I certainly have to know a lot more about the 
impact on other airlines before I could favorably look upon 
this document. With that, I would yield back.
    Mr. Filner. Thank you, Mr. Chairman. I do want to say I 
know Jim Wright. Jim Wright is a friend of mine, but the Wright 
amendment is wrong. And I know the chairman will find great 
difficulty in believing this, but we agree on the fact that 
this amendment should be abolished. This amendment does not 
only affect Texas, with all due respect, to my Texan friends. 
California is affected also.
    I represent the city of San Diego, I should say as a 
disclaimer I have as many frequent flyer miles on American as I 
do on Southwest. But San Diego has a love affair with Southwest 
Airlines. It has taken a cul-de-sac city as we really may be 
geographically and opened all of California and much of the 
country to our citizens for quick and effective airplane travel 
and low prices. We could go up to L.A. or San Francisco for 
lunch and be back to another city for dinner and be back in 
time to go to sleep in San Diego because of Southwest. So we 
were anxious to have it repealed. But if this compromise is as 
the chairman said, what we all can agree on then let's go 
forward with it.
    Mr. Mica. I have one more Texan, Mr. Poe, who is on our 
panel and then I will try to get to you all who are waiting.
    Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman, for having these 
hearings. This really has become a family feud and the families 
sat down together and broken bread and called a truce. And I do 
not want to be another Texas within involved in this family 
feud that has apparently been settled so I agree with the 
compromise, the truce, the truce that has been agreed upon 
among the family and I think it should be approved. Thank you, 
Mr. Chairman. I yield back.
    Mr. Mica. Thank you. Mr. Oberstar is the ranking member of 
the Committee on Transportation and Infrastructure.
    Mr. Oberstar. Thank you, Mr. Chairman. It is important for 
this committee to deal with this issue legislatively to have 
this hearing rather than have the Love Field Wright amendment 
issue eroded piecemeal as it has been over a period of years 
without a view to the larger national aviation context in which 
this issue must be discussed, but a good deal of talk about 
stakeholders. Stakeholders are not just the cities of Dallas 
and Fort Worth, nor the airlines or the airport authorities. 
The stakeholders are all Americans. If you approve a law in 
Massachusetts it does not do much for traffic in California, 
but if you improve an airport, if you add a 5,700 foot runway 
at Logan field it does make traffic from the west coast more 
accessible to the east coast to Boston because of the nature of 
the air travel.
    Similarly, dealing with the Dallas DFW Airport and the Love 
Field Airport is a national aviation matter. It is not just a 
local issue. And we have to be very careful and very thoughtful 
about how we approach this issue. And I will not go back and 
recite the history of the agreement between Dallas and Fort 
Worth negotiated by Najib Halaby when he was administrator of 
FAA, and under President Kennedy when Kennedy had just started 
the increase in funding for aviation to invest in airport and 
runway and taxiway improvement to expand aviation in the United 
States. That history is told in hearings that I held in 1991 in 
great deal with Najib Halaby himself testifying.
    There are two issues. One is safety, the second is 
competition. There is a fairness issue that Jim Wright 
attempted to deal with in what we know as the Wright amendment 
holding both cities to the agreement they negotiated rather 
than let one run out on it and the other be stuck with an 
economic problem on its hands. That is now being resolved by 
the two cities who have come to an agreement.
    The safety issues is a real concern. Now, DFW has gone to a 
four-corner, four-post approval sequencing that has made it 
much safer for operations at Love Field that are only 8 miles 
away from DFW, and aircraft are only 2 miles apart from each 
other on arrival and departure patterns, and that has been 
adequately documented in the hearings we held in 1991.
    The FAA will be here, I hope, with some slides that will 
show and I have those documents it will show that they can 
manage the air space safely. Do not forget Love Field is not 
just a little hick airport. It has 235,000 operations a year. 
That would be the envy of any other airport in the country 
except for a handful. And there is well over 300, 400,000 at 
DFW and headed upward.
    So first is managing that air space safely. The FAA will 
testify that they are able to do that. The second is managing 
the competition safely. This agreement says we are going to 
have only 20 gates, terminate others, raises questions about 
who is going to come in and compete in this future opened up 
competitive airport, Love Field. In the Wright amendment, we 
legislated a limitation on service and competition. But if the 
agreement entered into by the community is ratified in law, 
then we will, for the first time in this country have 
legislated the number of operations at an airport. We will have 
legislated the amount of competition that can be entered into 
at an airport. We have seen the effects of the cap on 
operations at O'Hare Airport, at LaGuardia, at National 
Airport, and the slot rules resulted in something totally 
perverse.
    Airlines acquired financial interest and equity in the 
slots that they owned, they were able to buy and sell slots. 
They were able to trade them as part of their equity and 
acquire monetary value. Will the same thing occur with those 
gates? And how will new competition come into Love Field? How 
will the next generation of low fair competitive airlines come 
in to challenge the brilliant Southwest Airlines or the 
gigantic American Airlines? Where is room for competition? I 
want to hear this. We are going to have a very lively 
discussion about it later on as we proceed with this hearing. 
Thank you, Mr. Chairman.
    Mr. Mica. Thank you, if I may take, I still have a request 
from one of our members here to speak. I know Mr. Barton is 
engaged in a markup, and I think we could extend a courtesy to 
Chairman Barton to present his statement at this time. Then I 
will come back and then we will go to Mr. Hall and down the 
panel if we could. Mr. Barton you are recognized. Thank you.


TESTIMONY OF THE HON. JOE BARTON, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Barton of Texas. Thank you, Mr. Chairman. It is a 
privilege to appear before what appears to be a majority of the 
House of Representatives on your subcommittee. If you get any 
bigger, you will have to meet on the House floor, which you are 
probably already doing any way.
    I am going to ask that my statement, formal statement be 
submitted to the record.
    Mr. Mica. Without objection, so ordered.
    Mr. Barton of Texas. I am going to be very brief because I 
do have a markup in my committee we are chairing, on adding a 
bitterant to anti freeze to make it impossible or more 
difficult for children and animals to drink it and be poisoned.
    I do not think it has been any secret that I have been a 
proponent of keeping the Wright amendment as it is. I think it 
has been good public policy for the last 30-some odd years. I 
think it would continue to be good public policy if we were not 
to amend it in any way. Having said that, the stakeholders in 
the DFW area have come together in a good faith effort after 
strenuous negotiation and come to a proposed agreement that I 
think should supersede the Wright amendment. The gist of it has 
got three basic legs. One, you will have ultimate repeal of the 
Wright amendment in 8 years, so those of you that are for 
repeal, you get it. You just do not get it today. You get it 8 
years from now.
    Second, since you do not get total repeal right away you 
get through ticketing at Southwest out of Love Field and any 
other airline that serves Love Field, that should have an 
immediate impact on competitive pricing at all airports in the 
region. In order to give some certainty to the DFW Airport, 
there would be an agreement that Love Field would never have 
more than 20 gates in operation. They have a master plan at 
Love Field that could allow for, I believe, as many as 42 gates 
before DFW. Love Field, at one time, I believe, had 55 gates. 
There are currently 15 or 16 gates in operation, so the 20-gate 
limitation would give some ability to expand at Love Field, but 
it would not give it the ability to expand to a huge amount. 
Those will be the main components. Through ticketing 
immediately, 8-year repeal, 20-gate limitation.
    The strongest reason to support this agreement, in my 
opinion, is because of the parties that have negotiated it. You 
have the mayors of both the cities of Dallas who owns 2/3 of 
DFW and 100 percent of Love Field supporting it. You have the 
mayor of Fort Worth, and I should say the city council of both 
cities. I believe they have both formally endorsed the 
agreement. You have the two airlines that are headquartered in 
the DFW area, Southwest in Dallas, and American in Fort Worth 
that have also strongly endorsed the agreement. It is my 
understanding that Continental, that is headquartered in 
Houston, Texas, while they are not a signatory to the 
agreement, is supportive of the agreement.
    If we accept this, I think what you are going to see is the 
creation of what I would call a superregional airport. You will 
have five terminals at DFW, A, B, C, D, and E, and you will 
have one terminal at Love Field.
    As the crow flies, that is a distance of about 9 miles, but 
by Texas standards I know people who have bigger back yards 
than that. So what you are going to have is five terminals at 
DFW, and one terminal at Love. You are going to have the 
ability for through ticket. You are going to have the ability 
for other low cost airlines to come in, certainly to DFW, and I 
would love to have Southwest go out to DFW. So we will get a 
good regional airport, we will get a superregional 
international airport, and we will have peace and harmony for 
all the American flying public, not just the DFW area.
    There are some issues outstanding. Mr. Oberstar has raised 
an issue on safety. It is my understanding that language is 
being shared between Mr. Oberstar and Mr. Mica and the FAA that 
we can hopefully resolve that. We have an 80-mile perimeter 
enforcement portion of the agreement that there are some 
members that have concerns about we are trying to find a way to 
work on that. Having said that, this is a strong agreement. It 
has been thoughtfully worked out. I would strongly encourage 
the committee, and ultimately the full committee, to endorse it 
legislatively. I look forward to working with the members of 
this subcommittee and full committee for doing that. Thank you 
for the courtesy and allowing me to testify.
    Mr. Mica. Mr. Bachus, you had a quick opening statement, 
and then I will get Mr. Hall in before this vote at least.
    Mr. Bachus. Thank you. I would like to associate-- I read 
the members' statements. I would like to associate myself, I 
know Ms. Granger, I think probably everything you said in your 
statement I agree with. I was kind of concerned with what some 
of the members said about this clause 6. I think Congressman 
Hall and Congressman Burgess had some concerns about some of 
the outlying airports, but the bottom line is the parties have 
agreed to this.
    Actually, I am from Alabama, and this may actually hurt us, 
because flights used to skip down in Birmingham and then go on 
to other places, but I think obviously the traveling public is 
best served by this agreement, and I have to compliment the 
parties and plan to enthusiastically support it.
    Mr. Mica. Mr. Bachus yields the balance of his time to Ms. 
Berkley, and then we will get Mr. Hall.
    Ms. Berkley. Thank you, Mr. Chairman. Very quickly I would 
like to submit my opening statement for the record, with the 
exception of saying this thing publicly. The Wright amendment 
is not the only barrier to competition in place in the airline 
industry. Federal law currently limits flight, as we all know, 
in and out of Reagan National Airport in Washington to a 
distance of 1,250 miles, Las Vegas, which I represent, lies 
outside of this parameter, and we are therefore at a 
substantial disadvantage, exemptions have been granted over the 
years, but my constituents and those wishing to visit my 
wonderful city and enjoy our wholesome family entertainment are 
currently limited to one nonstop flight per day on this route.
    I want to congratulate those that are here today who have 
come to an agreement on the Wright amendment that we can 
hopefully serve as a basis for legislative action, but I am 
also hopeful that Congress, and this subcommittee in 
particular, will act to address other anti competitive rules 
that currently are in place, and thank you all very much for 
being here.
    Mr. Mica. Thank you. You can see this has a lot of interest 
not just in Texas. Mr. Hall, I appreciate your waiting 
patiently. You are recognized.


TESTIMONY OF THE HON. RALPH HALL, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Hall. Thank you, Mr. Chairman, and members and my 
colleagues from Texas. I want to thank you for holding the 
hearing. I have been watching Love Field probably longer than 
anyone in this room. I remember the days when you could get 
aboard a plane at Dallas if you were going to Austin, you would 
stop at Fort Worth, you would stop in Waco, and you would 
finally make the long trip on in to Austin. There have been 
some changes since that time, but we have always had a great 
airport there. I think the airports are great, Love Field and 
DFW. And like most Members of Congress, especially the Texas 
delegation, we have hoped for a compromise.
    We have wanted a compromise. We have prayed for a 
compromise, because in my district, as I go from county to 
county, and people I would ask about the Wright amendment, I 
found out 80 percent of them were for it and about 80 percent 
were against it. And that is not a very good feeling for a guy 
that is looking for 51 percent. So I am pleased that we are 
having the hearing.
    On Thursday, June 15, the cities of Dallas and Fort Worth, 
American Airlines, Southwest Airlines, Love Field and DFW 
announced they had reached a deal regarding the Wright 
amendment, and I have long said that the parties should get 
together and broker than agreement. This pursuit has taken 
place, and is still taking place. Up to 10 minutes ago, in my 
office, as I started down here, we were still working on it. It 
was an overall agreement that I desperately want to support. In 
reading over the agreement, however, I have some concerns that 
I am hoping that the committee addresses in the legislation.
    Section 6 has been alluded to of the agreement that states 
that the cites of Dallas and Fort Worth will oppose--basically 
this says as I state, "Efforts to initiate commercial passenger 
air service at any area airport other than DFW during the 8-
year period to the extent any other airport within an 80-mile 
radius seeks to initiate scheduled commercial passenger service 
within this 8-year period, both cities agree to work diligently 
to bring that service to DFW, or if that effort fails, then 
airports owned by the city of Dallas and/or Fort Worth."
    It is, of course, not surprising that cities compete to 
bring new air service to their communities. If another airport 
in the greater region were to seek commercial air service, one 
would expect that Dallas and Fort Worth would aggressively 
compete for that business. If Dallas and Fort Worth were to 
work together to oppose the growth of commercial passenger air 
service at other airports in the region, it seems more logical 
to me that they should do this by private agreement between the 
cities and/or between the airlines and even record this 
decision in the city council's and commissioner's court 
hearings, all supported by their own Chambers of Commerce, and 
not give Federal approval and recognition to such an agreement. 
It should not be encompassed in Federal legislation.
    The airports affected by such restriction are not parties 
to this agreement and any such disagreement should be between 
the parties, be it Fort Worth, Dallas, American Airlines or 
Southwest.
    Accordingly, Mr. Chairman, Congress should not give 
legislative authority to an otherwise private agreement and 
send a signal to the FAA that those not privy to the contract 
and signers thereof agree with the 80-mile prohibition. I 
represent a district that has seven airports that fall within 
the statutory 80-mile radius. The mayors, county judges, 
airport directors and Chambers of Commerce representing these 
airports strongly oppose this section of the agreement. And 
they are strongly working to work it out as is the Senate.
    The Senate sponsors are working hard to work this out. And 
we want to work with them and have some give and take and try 
to get this thing reconciled. They are rightly alarmed that any 
attempt to legislate an agreement that restricts their ability 
to expand their markets is of great consequence. And Mr. 
Chairman, I have letters from all of these people, and I ask 
unanimous consent that they be submitted into the record.
    Mr. Mica. Without objection, so ordered.
    Mr. Hall. While I have a fond regard for Dallas and Fort 
Worth, I have been sent to Congress to represent the people in 
my district. Many towns in my district have airports. Some 
small, others have dreams of growing to midsized facilities. 
Some of these facilities have dreams to compete and grow in 
Northeast Texas. Indeed Collin and Rockwell Counties are some 
of the fastest growing counties in the Nation. This agreement 
could potentially harm these communities if Congress legislates 
these terms, and I cannot support a bill that harms the 
citizens I represent, but I want desperately to support a bill.
    The American dream does not prohibit competition. It 
energizes it. Much of my Congressional district, and especially 
Rockwell and Collin Counties are located in the shadow of 
Dallas County line. I have always been pro-Dallas, pro-Terrent 
county. It gives me no solace to oppose an agreement that I 
have long hoped for.
    In closing, I would just say I would hope that I would not 
be forced to make a decision to vote against either city or 
either airline. I am grateful to those who worked out this 
compromise. I simply need this one adjustment. I urge the 
committee to reject legislation that codifies section 6 of this 
agreement. I look forward to working with members of this 
committee, and Members of the entire Congress, to ensure that 
the American spirit of competition thrives. I do thank you and 
yield back my time.
    Mr. Mica. Thank you. Mr. Johnson, we have about 7 minutes. 
Did you want to give it 3 or 4 or would you like to come back?
    Mr. Sam Johnson of Texas. I am willing to try.
    Mr. Mica. I will give you about a 3-minute warning. Then we 
have three votes, so it will be about 3:15 before we reconvene. 
Mr. Johnson, you are recognized.


TESTIMONY OF THE HON. SAM JOHNSON, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Sam Johnson of Texas. Thank you, Mr. Chairman, Mr. 
Costello. You know we have come a long way in a short time. 
Only last May, Jeb Hensarling and I introduced the Right to Fly 
Act. Our bill called on Congress to immediately repeal the 
Wright amendment. The bill met intense enthusiasm from 
travellers living both inside and outside of Texas, so I am 
thrilled to be here today, barely one year later, testifying on 
the future repeal of the Wright amendment. Jeb and I introduced 
the bill because we felt that the cornerstone of free 
enterprise is the freedom to fly. We introduced the bill 
because the 1979 Wright amendment law had outlived its 
usefulness. And we introduced the bill because, as you said, 
Wright is wrong.
    Mr. Chairman, it is not just a handful of Texas members and 
thousands of our constituents who think that way. In just a 
year, 55 representatives from all across America have co-
sponsored our bill and so called "Southwest effect" brought to 
their cities.
    Today's hearings on the current proposal drawn up by the 
cities of Dallas and Fort Worth as well as American and 
Southwest airlines is much needed. That is because this is not 
an automatic in my book. It seems to me that the cost of 
getting Dallas Fort Worth and the two airlines to agree on the 
solution to the Wright amendment meant new restrictions on 
other cities around the region, none of which had a seat at the 
table, none of which could have predicted that they would be 
dragged into this. So essentially, for the third district, we 
are looking at what looks like to me the Wright amendment all 
over again, or as I have come to call it, Wright-lite.
    Nearly every single one of our constituents encounters the 
Wright amendment, that is why I am going to move forward 
cautiously and thoughtfully. The two biggest concerns I have to 
do with are the agreement's impact on the number of other 
airports in the region, specifically Collin County Regional 
Airport, and McKinney. Colin County Regional Airport is a 
general aviation airport that is 27 miles from Love Field that 
serves as a reliever airport for DFW. Under the agreement, 
specifically in sections 6 and 7, it states the cities of 
Dallas and Fort Worth would work together over the next 8 years 
to oppose any new commercial aviation service to any airport 
within 80 miles of Love Field.
    What troubles me is that Dallas and Fort Worth should not 
be asking Congress to pass laws that hamstring other cities or 
counties. That is just unAmerican. The last thing we need is 
Congress giving any city a competitive advantage over another. 
Creating an uneven playing field is the wrong thing to do. Free 
markets do work. Communities thrive when we keep our nose out 
of their business.
    My other concern comes under sections 10 and 11 and under 
those sections, the cities state that Southwest and American 
would be penalized should they decide to operate commercial air 
service at any other airport within 80 miles of Love Field. At 
first glance and knowing that the two airlines agreed to these 
terms, I thought that I might be able to live with it, but that 
was before I realized that will this restriction would not just 
be in place until the 8 years repeal. This restriction would be 
in place until 2025. That is 19 years from now, after the 
Wright amendment would be repealed. That is just wrong. That is 
replacing one unnecessary restriction with another.
    We have a duty to preserve our national aviation system and 
Love Field should be no exception. We deregulated the airlines 
and it worked. America stands for freedom and free enterprise, 
not more government interference. It is my hope that any 
legislation we draft and potentially pass through the Congress 
is written in such a way to remove Wright-lite proposals on 
other counties and cities.
    Before I close, I would like to request permission to 
insert the testimony from the McKinney mayor, Bill Whitfield.
    Mr. Mica. Without objection so ordered.
    Mr. Sam Johnson of Texas. Thank you, sir. Let's give 
America the right to fly.
    Mr. Mica. Thank you, Mr. Johnson. Other members, we have 
less than 3 minutes to vote. So if you could keep that path 
clear and let the members exit to the left, we will reconvene 
at 3:15. We have three votes. This hearing stands in recess.
    [recess.]
    Mr. Mica. I would like to call the subcommittee back to 
order, welcome everyone back. I apologize. Took a little bit 
longer than we expected, but if we have to stay here through 
the night until tomorrow, we are going to hear this thing 
through.
    The very distinguished gentlelady from Texas, Ms. Granger, 
if you are ready to go, we are ready to go. You are welcome and 
recognized.

TESTIMONY OF THE HON. KAY GRANGER, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Ms. Granger. Thank you very much, Chairman Mica and ranking 
members and to the members of this committee. I appreciate your 
agreeing to hold this important hearing to hear about the local 
aviation issue. It is an issue, of course, you know so much 
about, I have talked to you personally about, Mr. Chairman. It 
has developed into a national debate and certainly affects 
consumers all across the United States, and we recognize that.
    I have been intimately involved with this now for more than 
15 years, both as Mayor of Fort Worth and now as a Member of 
Congress, and wrestled with this, as have the two cities and 
the airlines and the airport. And I am certainly proud the 
community has come up with a local solution that will also 
better serve the national traveling public, and I think that is 
exactly what will happen.
    Over the last several months, north Texas has shown both 
discipline and cooperation in assembling a thoughtful, 
comprehensive solution that meets the aviation travel demand 
for today and for the future. What has transpired since last 
fall has been arduous, it has been intense, sometimes it has 
been even painful with all the stakeholders involved, and as 
was said earlier, no entity got everything they wanted to but 
they had to agree to provisions that may have caused some 
discomfort in their boardrooms and city halls but they came 
together with a good solution.
    From my longtime experience with this complex issue, I have 
witnessed the negotiations between mayors, airlines, airports 
and between differing responsibilities in the Federal 
Government. In all my years I have never seen a consensus like 
we now have before you in this joint statement of the 
stakeholders.
    I speak for several other mayors who were unable to do 
this. So I certainly compliment the two mayors who came 
together to hammer out this solution.
    If you leave with one impression of this joint statement, 
may it be this one. Accepting the provisions in a piecemeal 
fashion is not a workable solution for achieving the needed 
critical balance for all the stakeholders. It has to be adopted 
in its entirety.
    To illustrate the critical nature of this balance I will 
address one provision and how its inclusion directly affected 
the different stakeholders. As you know, in this local 
agreement the Wright amendment will be repealed outright 8 
years from the enactment of this Federal legislation. This time 
allowance is absolutely necessary to provide operational 
certainty for the cities, for the airports, and for the 
airlines.
    The cities of Dallas and Fort Worth must be able to provide 
stability for supporting short- and long-term viability of 
their mutually shared airport, Dallas/Fort Worth International. 
The FW Airport is directly or indirectly responsible for over 
200,000 jobs and crucial to the north Texas economy. Immediate 
repeal of the Wright amendment would cause detrimental effects 
for the cities as they work toward keeping the FW strong and 
building its growth for the future.
    The airports must have time to adjust their master plans in 
order to protect air safety and build one long-term business 
development on their properties. This 8-year time period will 
enable both Love Field and DFW to make the most of their assets 
with considerable improvement to market certainty.
    The airlines must be afforded time to adapt service in 
existing and new markets from both airports. Immediate repeal 
of Wright could put the north Texas commercial air industry in 
an economically harmful state, and it would also deny airports 
and airlines the opportunity to react to market changes and 
passenger preferences after first implementing through-
ticketing. In the long run, a phaseout approach will allow 
increased choices and competitive pricing for consumers.
    Another important provision in this agreement is to codify 
the number of gates out of which Love can operate. Limiting the 
number of Love Field gates at 20 operating service gates is 
important for air safety, for noise and air pollution, and to 
the business and residential community surrounding Love Field. 
It is also necessary to keep commitments made by the two cities 
to each other when DFW was built. Codifying the number of gates 
at Love Field was a key piece to the agreement among the 
entities, and I support its inclusion in any Federal 
legislation.
    The Wright amendment and the situation with Love Field and 
DFW Airport are unique and require a unique solution and I 
think that is what we have. This clarification is important to 
note because the stakeholders were tasked with finding a local 
home-grown solution to end the Wright amendment debate once and 
for all. They found a solution that works for north Texas and 
to the advantage of the American consumer.
    As a former member of this committee I understand how this 
committee works to not only solve issues but to thoughtfully 
establish long-term policy with the best interests of commerce 
and the traveling public at heart. I believe the joint 
statement agreed to by the stakeholders before you today meets 
those goals as well.
    This agreement was reached with a holistic approach to 
solve the debate once and for all, and I am very glad to 
support it and I wholeheartedly do that. Thank you, Mr. 
Chairman.
    Mr. Mica. Thank you for your patience.
    Now we will hear from another distinguished Texas 
Representative, Mr. Hensarling. Welcome, and you are 
recognized, sir.

   TESTIMONY OF THE HON. JEB HENSARLING, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Hensarling. Thank you, Mr. Chairman and Ranking Member 
Costello. Thank you for holding this hearing and for inviting 
me to speak.
    Last year along with my colleague Sam Johnson, I introduced 
the Right to Fly Act which would fully, completely, and 
immediately repeal the Wright amendment. Repeal is important 
for two reasons.
    First, as we know, there are over 500 airports in the U.S. 
that have commercial passenger air service. With the exception 
of Reagan National which sits on Federal property, Congress in 
all of its history has imposed distance limitations on just one 
airport, Love Field, and it did it to protect DFW Airport from 
competition. I sincerely believe that sort of protectionism is 
not and should not be the role of the U.S. Congress.
    Secondly, every study of the Wright amendment, regardless 
of who commissions it, shows that fares will fall significantly 
with repeal. The U.S. Department of Transportation found that 
air travel in and out of north Texas costs about a third more 
than the national average. That is a lot of money our 
constituents could be using to pay health care premiums, fill 
up a car, or pay a utility bill.
    Still, I understand reasonable minds can and have differed 
on this subject for almost 30 years. Just witness this panel. 
Against this backdrop, the cities of Dallas and Fort Worth as 
well as DFW Airport, American Airlines, and Southwest Airlines 
entered into negotiations that produced an historic agreement 
among them. I salute Mayors Miller and Moncrief for their 
tenacity and leadership in forging this consensus agreement.
    I view their agreement as great progress. For the flying 
public, though, I do not yet view it as a great success. Still, 
I have always indicated a willingness to support other plans 
besides my own as long as they meet a twofold test. One, the 
plan clearly benefits consumers; and two, the plan removes 
Congress from the business of airport protectionism.
    Without seeing final legislative language, it is unclear to 
me whether the local agreement will satisfy these criteria.
    With respect to helping consumers, I am concerned that the 
proffered agreement essentially constitutes an 8-year extension 
of the Wright amendment. Most citizens in the area, I think, 
believe that a 2- to 5-year gradual phaseout represents the 
reasonable compromise. The previously released Campbell-Hill 
study indicates that consumers annually pay almost $700 million 
extra in airfares due to the Wright amendment. Therefore, an 8-
year extension translates into another $5 billion loss to our 
constituents. Even by Washington standards, Mr. Chairman, that 
is a big number and a big burden to American families.
    On the other hand, I am increasingly convinced that 
immediate through-ticketing can positively impact competition 
in airfares. Although hard data is hard to come by, American 
Airlines and Southwest Airlines recently commissioned a study 
on just this topic and made it available to me yesterday and, 
Mr. Chairman, I would ask that this report be made part of the 
record.
    Mr. Mica. Without objection, so ordered.
    Mr. Hensarling. The conclusion of the joint Campbell-Hill 
and SH&E study is as follows: Number one, through-ticketing 
will produce 259 million in fare savings annually. Two, 2 
million new passengers will travel to and from the region. 
Number three, this will create a $2 billion annual boost to the 
economy.
    Now, while I cannot vouch personally for their methodology, 
I find this report most encouraging that consumers may see a 
significant and immediate benefit from this part of the local 
agreement.
    I am also concerned that under the agreement, the city of 
Dallas has chosen to reduce the number of permissible gates at 
Love Field from 33 to 20. Still, it is the city's airport and I 
respect its right to contractually bind itself to do just that. 
I am further concerned that under the agreement Southwest 
Airlines has agreed, perhaps unenthusiastically, to restrict 
their Love Field's flights to the nine permissible States for 8 
years. Still, it is their airline and I respect their right to 
contractually bind themselves to do just that.
    The combination of the two clearly means that full and 
immediate repeal will render far fewer consumer benefits than 
would otherwise be the case. Given all of this, if a bill comes 
to the floor that grants immediate through-ticketing and full 
repeal 8 years now, I will view it as solid progress and I 
intend to vote for it.
    My second concern is getting Congress out of the airport 
protectionism business once and for all. In the compromise 
agreement, the airlines and cities make joint pledges in such 
areas as gate limitations, international flights, initiating 
flights within 80 miles of the airports, and the list goes on. 
Again, parties have the right to make contracts but I see no 
compelling reason for Congress to codify into Federal law 
private contractual obligations that are enforceable in court. 
Congress would be replacing one complex set of anticompetitive 
rules with another.
    Using my colleague Sam Johnson's phrase, we would end up 
with "Wright Lite." thus, if a bill comes to the floor that 
codifies these specific obligations of the private parties into 
Federal law, I intend to vote against it.
    In closing, Mr. Chairman, for far too long the Wright 
amendment has been a burden on both consumers and the national 
economy. Only Congress can repeal Wright, and we should. But if 
we cannot reach agreement on doing so today, and it appears we 
cannot, I do stand ready to work with any and all parties to 
codify into Federal law the immediate through-ticketing and 8-
year repeal portions of the local compromise. Thank you for the 
opportunity to testify.
    Mr. Mica. Thank you for your testimony.
    And now, waiting most patiently--and we probably need a 
Texas physician to sum this up-- Representative Burgess, you 
are recognized.

  TESTIMONY OF THE HON. MICHAEL BURGESS, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thank you, Mr. Chairman. Thank you for holding 
this hearing. It is a pleasure to be back within the humble 
confines of the T&I committee room, again the largest standing 
committee in the Free World.
    Previously it has been stated that for almost 30 years the 
Wright amendment--Mr. Chairman, I would point out that is 
almost my entire life--for almost 30 years the Wright amendment 
has protected a mutual agreement between the cities of Dallas 
and Fort Worth. In fact, without the Wright amendment, look at 
Austin, look at Denver, look at Atlanta; I am not certain what 
happened in Fayetteville, Arkansas with the opening of the 
Northwest airport there, but those cities lost their older 
airport because of agreements that were entered into by those 
cities when they opened a larger, new facility.
    I believe in the integrity of the Wright amendment. I 
believe it has enabled Dallas/Fort Worth Airport to become the 
economic engine of north Texas. If we change the terms of the 
old agreement, the new law must protect the lives and the 
livelihoods of tens of thousands of people who depend on 
Dallas/Fort Worth Airport.
    Our two mayors, Mayor Moncrief and Mayor Miller, have each 
worked diligently along with major stakeholders, and I believe 
they have entered into a historic agreement that will protect 
my constituents, constituents throughout north Texas, for 
better services at Love Field and for continued excellent 
service at Dallas/Fort Worth Airport.
    I do represent a portion of the Dallas/Fort Worth Airport, 
but I also represent Alliance Airport and Denton Municipal 
Airport. I believe the surrounding airport interests must be 
protected.
    I am pleased that the mayors made a distinction between 
commercial, passenger service, and cargo service. Additionally, 
most unscheduled charter service is not included in the 
definition of commercial passenger service; thus, surrounding 
airports will be able to continue their cargo and most charter 
service without disturbance. This is a very important service 
and I believe we should take all the necessary measures to 
protect communities like the city of Denton.
    It should be noted that this agreement only binds the 
cities of Dallas and Fort Worth, American Airlines and 
Southwest Airlines. It does not bind the neighboring cities 
within the 80 miles. Therefore, their autonomy should remain 
unquestioned. I would oppose any measure, whether State or 
Federal, that would obligate other parties to this agreement. 
If other parties are subsequently bound by this agreement or 
any form of legislation, this would be contrary to the intent 
of the agreement.
    It is my hope that any proposed legislation will remain 
silent on the issue of preemption.
    The Dallas Aviation Department has revealed that the 
department has a $20 million budget shortfall within its two 
most recent fiscal years combined. While the aviation 
department has proposed increasing their landing fees at Love 
Field from $0.35 to $0.55, the Dallas taxpayers, not just the 
traveling public, but the Dallas taxpayers are still 
subsidizing this airport. According the Dallas Morning News, 
the landing fee increases will bring in over $900,000 to the 
city annually. This obviously falls short of offsetting that 
budget deficit.
    Similarly situated midsize airports charge an average of 
$1.40 landing fees and I do not understand why the city of 
Dallas has been reluctant to charge a more fiscally responsible 
landing fee. While clause 5 of the new joint agreement does 
provide the landing fees will be adjusted to cover much-needed 
facility and safety improvements, it is my hope that the city 
of Dallas will rise to the challenge and increase the landing 
fees to a more appropriate level.
    As with any older facility, modifications need to be made 
to ensure the safety of the entire area. An increase in landing 
fees could provide for additional safety improvements that 
would provide for the well-being of those in and around Love 
Field, including runway expansions and over-run barriers. The 
citizens of Dallas deserve these safety measures as well as 
more transparency in the financial records at Love Field.
    While I would have preferred for the Wright amendment to 
stay intact, I have always believed that the fate of the Wright 
amendment should be decided locally between the cities, since 
they are the entities that actually own the DFW Airport and 
Love Field. If the Wright amendment is to be modified, it 
should come first from the local level and not from Washington.
    Just a few short months ago the north Texas delegation 
charged Mayor Moncrief and Mayor Miller with this most 
difficult task. Considering the history between the two cities, 
some felt this task was in fact impossible. However, Mayor 
Moncrief and Mayor Miller rose to the challenge and we now have 
before us a local agreement signed by all major stakeholders. 
It is now our opportunity to rise to the challenge and, if 
possible, pass legislation that reflects this agreement. If it 
is impossible to enact this legislation that reflects the 
agreement, then the Wright amendment should stay firmly intact.
    Again, Mr. Chairman, I thank you for having this important 
hearing. I offer my assistance to you and the committee 
regarding the aviation issues that affect my constituents in 
north Texas.
    Mr. Mica. I thank the gentleman. Thank you again for your 
patience.
    Do we have any other Members that seek recognition on this 
issue before us? Normally we don't question our fellow Members. 
You will get a chance, I am sure, as soon as you get off the 
panel.
    I went to a wedding this weekend where the pastor said, 
Speak now or forever hold your peace. This is it, ladies and 
gentlemen. No one else.
    OK. I want to thank each of you for your participation and 
your contribution to today's hearing and we will excuse you at 
this time. Thank you.
    We will call our first panel: Michael Cirillo, Vice 
President of Systems Operations for the Air Traffic 
Organization of the FAA. Mr. Cirillo.
    This is probably Andrew's last hearing. I told you I would 
speak for you or against you to help you get a job, Andrew. You 
got it. We will miss you.
    All right, the representative from FAA, thank you for being 
with us, and you are recognized at this time.

    TESTIMONY OF MICHAEL CIRILLO, VICE PRESIDENT OF SYSTEM 
    OPERATIONS, AIR TRAFFIC ORGANIZATION, FEDERAL AVIATION 
                         ADMINISTRATION

    Mr. Cirillo. Thank you, Chairman Mica, Congressman 
Costello, and members of the committee. I appear before you 
today to discuss the unique operational restrictions now in 
place at Dallas Love Field Airport and whether modifying those 
restrictions will----
    Mr. Mica. It is a little hard to hear. Can you either pull 
that up or speak closer?
    Mr. Cirillo. Is that OK?
    I appear before you today to discuss unique operational 
restrictions now in place at Dallas Love Field Airport and 
whether modifying those restrictions will result in a 
denigration of air space efficiency in the Dallas/Fort Worth 
area.
    The background of the Wright amendment has been well 
discussed. The FAA has been asked if safety would be affected 
by permitting additional flights into and out of Love Field. 
The agency has said consistently and repeatedly what I 
emphasize today: FAA will never compromise its safety standards 
to accommodate increased demand.
    Our most critical mission is aviation safety, including 
keeping aircraft safely separated from one another. 
Consequently, the only question that should be asked from an 
airspace perspective is whether further modification to the 
Wright amendment would compromise efficient airspace use in the 
Dallas/Fort Worth area.
    Based on a recent MITRE study requested by FAA of air space 
operations if the Wright amendment is repealed and based on 
FAA's validation of MITRE's findings I can tell you FAA does 
not expect the efficient use of airspace will be compromised.
    Knowing that the debate on the Wright amendment was 
ongoing, FAA contacted MITRE and asked them to assess the 
impact to efficiency of increased operations at both DFW and 
Love Field. Results of the analysis indicate there is 
significant additional capacity in the Dallas/Fort Worth 
terminal area airspace. While additional operations at these 
airports may increase complexity, many other regions of the 
country have airspace that is at least this complex. In each 
case the potential conflicts are unique to the particular 
location. Factors such as the number of airports in the region, 
the number of runways at each port, how they are situated, and 
the number and type of operations conducted there are only some 
of the considerations that dictate how FAA controls traffic in 
a given region. FAA has great flexibility in using a wide range 
of technologies and procedures to accommodate the air traffic 
needs of an area. Some of you may remember a couple of years 
ago the number of operations in Washington-Dulles International 
Airport significantly increased at a time when a new carrier 
initiated service at the same airport. At that same time, 
construction had closed one runway. FAA was able to implement 
traffic management initiatives to efficiently accommodate the 
increase in demand.
    Similarly, the airspace in the Northeast Corridor and 
southern Florida is quite congested with several major airports 
in close proximity.
    In addition, Chairman Mica recently held a field hearing in 
California to address his concerns that the operational 
challenges in that region were being met. I cite these examples 
to demonstrate the nature of our business, that FAA is asked on 
a daily basis to control traffic and maximize airspace and 
efficiency in a highly changeable environment characterized by 
congested routes, dynamic traffic, and volatile weather. Yet, 
by tailoring our resources to the unique demands of each 
situation, we have been able to do what we are asked, safely 
and efficiently.
    The MITRE study assumed a range of operational increases. 
Their conclusion, which FAA has validated, is that it would 
take hundreds of additional daily operations at both airports 
for there to be reportable volume-related delays. It would take 
hundreds more daily flights on top of that to result in what 
FAA would consider to be significant delays.
    It should be noted that their study did not factor delays 
that would be attributed to weather. While the MITRE study was 
based on unconstrained operations at Love Field, actual 
operations under the agreement reached by the parties would in 
fact be somewhat constrained by a limit on the number of gates 
that could be used. Given this limitation and MITRE's finding 
of no significant effect even in unconstrained conditions, we 
are confident that the operational increases that would result 
from the proposed modification to the Wright amendment would 
not result in efficiency problems for the Dallas/Fort Worth 
metropolitan area or the national airspace system. Even if 
operations in the area increase beyond what FAA anticipates, we 
have options to handle the significant increase in flights if 
necessary.
    Last month, Russ Chew testified before you about some of 
the notable successes of the air traffic organization, one of 
which was Area Navigation or RNAV. They provide flight path 
guidance that is incorporated into onboard aircraft avionic 
systems requiring only minimal air traffic instruction. This 
technology significantly reduces routine controller-pilot 
communications, allowing more time on frequency for pilots and 
controllers to handle other safety-related critical flight 
activity.
    Also RNAV procedures use more precise routes for takeoffs 
and landings, reducing fuel burn and time intervals between 
aircraft on the runways. This creates increased air traffic 
efficiency, enhances safety and may allow some increase in air 
traffic throughput. We currently have RNAV procedures in place 
for DFW but not for Love Field. So establishing it for Love 
Field is one option available to us should air traffic demand 
increase substantially. Should the need arise, we would also 
look at modifying flows and sector configurations on a larger 
scale.
    In conclusion, I want to reiterate that FAA's commitment to 
safety means we would never consider sacrificing accepted 
safety standards for the sake of efficiency or anything else. 
If Congress decides to modify the existing unique restrictions 
at Love Field and impose other unique restrictions there, FAA 
will continue to safely separate aircraft regardless of the 
operational impact of the legislation. Having looked at the 
anticipated impacts of what we know is under consideration, we 
have no reason to believe system efficiency would be 
compromised.
    This concludes my prepared statement. I will be happy to 
answer your questions at this time and I apologize I don't have 
slides. I debated, but in the end decided not to. I look 
forward to discussing the operation with you.
    Mr. Mica. Thank you for your testimony.
    I have one really two-part question for you. First, you are 
going to tell us today unequivocally, without any doubt or 
reservation, that it is safe.
    Mr. Cirillo. Yes, sir.
    Mr. Mica. The second part of that would be you are going to 
tell us that FAA will either have the resources or has the 
resources or can put the resources in place to make certain 
that the equipment, personnel, or whatever are required 
facilities to ensure safety will be there.
    Mr. Cirillo. Yes, sir.
    Mr. Mica. That is all I need to know.
    Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you. Let me ask you, how 
many additional operations would it take at Dallas/Fort Worth 
or both airports to affect the efficiency?
    Mr. Cirillo. We characterize the efficiency in a manner of 
describing delays, and to get to a point where we would have 
reportable delays, it really is hundreds of additional flights. 
DFW's peak year was somewhere around 875,000 operations. In 
2005 they operated somewhere around 740,000 operations, and 
Dallas Love coincidentally had the same peak year; they 
operated somewhere around 260,000 operations, and last year 
they were in the 235,000 range. And at that point there was 
still not significant volume-related delays in the area even in 
their peak year. So we have some built-in flexibility.
    Mr. Costello. How much flexibility?
    Mr. Cirillo. The MITRE study is not complete yet, but when 
I say hundreds, I am looking at the 2- to 400 range, additional 
flights.
    Mr. Costello. If the Wright amendment is repealed, have you 
or the FAA made any projections regarding the potential 
increased flight operations at Love Field by the year 2015?
    Mr. Cirillo. No, sir, we have not made those projections.
    Mr. Costello. Have you made any projections at all?
    Mr. Cirillo. No.
    Mr. Costello. Mr. Chairman, I don't have any other 
questions at this time, and I would yield the balance of my 
time to Mr. Oberstar, in addition to the time he is entitled 
to.
    Mr. Mica. That might be stretching it, but he is 
recognized.
    Mr. Oberstar. Thank you, Mr. Chairman. Thank you, Mr. 
Costello.
    You say, Mr. Cirillo, significant additional capacity. 
There are 549,000 operations at the two airports today, not 
counting the general aviation ops at DFW. How much more on top 
of that do you say you can accommodate? Operations, operations.
    Mr. Cirillo. The operations, the totals that I discussed 
were including general aviation operations.
    Mr. Oberstar. So you are talking about 200 additional, is 
that what you said in response to Mr. Costello, 200 additional 
operations?
    Mr. Cirillo. It is based on preliminary data.
    Mr. Oberstar. Two hundred a month, a year?
    Mr. Cirillo. Per day.
    Mr. Oberstar. Now the four-post operation in your airspace 
design has greatly alleviated the terrible congestion that 
existed 15 years ago. You still have aircraft about 2 miles 
apart from each other, don't you, on arrivals and departures in 
the air, aircraft in the air.
    Mr. Cirillo. Depending on the configuration. There is one 
waiver for one configuration at DFW but that is because they 
are procedurally separated. But generally 2 miles is not the 
separation standard that is used. They use a minimum separation 
standard which is based on wake turbulence, notwithstanding we 
use the minimum separation standard, which is either 3 miles or 
greater.
    Mr. Oberstar. You are sticking to the 3-mile separation. It 
depends on type and model of aircraft though, doesn't it?
    Mr. Cirillo. Yes, sir. Wake turbulence, a larger aircraft--
--
    Mr. Oberstar. If you have a twin-aisle wide body, you need 
more separation en route.
    Mr. Cirillo. In trail.
    Mr. Oberstar. In trail. And even with a 757 you need more 
separation.
    Mr. Cirillo. Yes, sir. On final approach with the 757 to 
the same airport.
    Mr. Oberstar. So you have on this configuration using the 
inbound here; inbound separated by route, inbound is separated 
by altitude. You have different climb rates of different 
aircraft. The 737, which is principally the Southwest fleet, it 
has about the fastest climb rate, 65,000 feet per minute.
    Mr. Cirillo. Yes, sir.
    Mr. Oberstar. Is that sufficient? Would you require that 
for all aircraft to have comparable climb rates so they are out 
of the wake turbulence of arriving and departing aircraft?
    Mr. Cirillo. In this case when they are utilizing vertical 
separation it is--these aircraft are not necessarily in trail 
so they are actually separated vertically.
    Mr. Oberstar. At DFW have you implemented the new vertical 
separation, the reduced vertical separation standards FAA has 
adopted?
    Mr. Cirillo. The reduced vertical separation standards were 
applicable above 29,000 feet and they mirror the separation 
standards vertically that we use below that. So they do use the 
same separation standard, which is 1,000 feet vertically.
    Mr. Oberstar. Given those concerns, and I know that FAA is 
not going to compromise safety, but in order to assure safety, 
in order to maintain the margin of safety, you may have to slow 
down traffic.
    Mr. Cirillo. In the case of the arrivals that you 
described, they are procedurally separated and the DFW and Love 
traffic is really not an issue. They are procedurally separated 
and not restricted based on each other. So it would----
    Mr. Oberstar. Your conversation up to this point at least 
has an underlying assumption of good weather. What about severe 
weather, which frequently--well, it is a common occurrence in 
the DFW airspace. What do you do then?
    Mr. Cirillo. In severe weather it completely depends on the 
scenario. We have instances where we have all routes to a 
particular metropolitan area, you may shut down the entire 
Metroplex area. We have had that situation occur throughout the 
system. So in the case of severe weather, it really is 
dependent on the particular scenario. There may be one inbound 
and outbound route, and in the case of weather we will incur 
delays, and that is systemwide.
    Mr. Oberstar. What do you anticipate in number of 
operational increases with this agreement as you understand it 
as it has been laid out? What do you anticipate in the number 
of ops out of Love Field?
    Mr. Cirillo. We really have not made that calculation. We 
haven't had enough discussions with particular customers----
    Mr. Oberstar. Is that something MITRE is supposed to study 
for you?
    Mr. Cirillo. Their study was really unconstrained with no 
information based on projections, no science based on the 
projection. It was just an unconstrained number of additional 
aircraft.
    Mr. Oberstar. To date, 757s do not operate out of Love 
Field; but under this agreement they could, right?
    Mr. Cirillo. Well----
    Mr. Oberstar. Love Field has at least a runway capacity to 
be able to handle that. 13R is 8,800 feet, 13L is 7,052 feet.
    Mr. Cirillo. I think physically a 757 could operate out of 
that airport. I have no idea actually at this time whether 
there is a plan to do that or not.
    Mr. Oberstar. There doesn't appear to be. They don't exist 
in the Southwest fleet. I don't recall whether American has 
757s in its fleet. But some may want to put 180, 200-passenger 
aircraft in that operation and extend their revenue option.
    That would then generate some new safety concerns, wouldn't 
it?
    Mr. Cirillo. It wouldn't generate a safety concern. We 
would apply the applicable separation in trail behind a Boeing 
757.
    Mr. Oberstar. But it would be a new procedure for that 
airport which doesn't have that type of operation now.
    Mr. Cirillo. I think that occasionally there are wide-
bodied aircraft that come into Love for maintenance or 
charters, so I think that it has accommodated those on the non-
schedule type of basis.
    Mr. Oberstar. What are the nav aids in use at DFW for both 
fields? Do you have RNAV in service?
    Mr. Cirillo. We have RNAV departures at DFW, we do not have 
those procedures for Dallas Love.
    Mr. Oberstar. Is there a control tower at Love Field?
    Mr. Cirillo. Yes, sir.
    Mr. Oberstar. What radar do they have at the tower?
    Mr. Cirillo. They have--the Dallas/Fort Worth Metroplex 
area has at least four terminal radars.
    Mr. Oberstar. I know that. So those terminals will be--are 
the control tower for Love Field?
    Mr. Cirillo. They provide the radar coverage.
    Mr. Oberstar. Are those ASR 9, 11s?
    Mr. Cirillo. Either ASR 9s or 11s.
    Mr. Oberstar. They are state-of-the-art.
    Do you have STARS in operation at the TRACON?
    Mr. Cirillo. No. They have Common Arts.
    Mr. Oberstar. Common Arts.
    Well, I think that at least, at the very least, this 
opening up of Love Field does raise some more concern, more 
challenge for FAA to more carefully manage that airspace; 
wouldn't you say that?
    Mr. Cirillo. I would say that we carefully manage the 
airspace always.
    Mr. Oberstar. I know you do.
    Mr. Cirillo. We have a great concern for safety. As I said, 
regardless of what the legislation----
    Mr. Oberstar. You will adapt to whatever comes. Whatever 
way is necessary and whatever additional technology is 
necessary. To maintain safety at the highest possible level, as 
it is stated in the opening paragraph of the 1958 FAA Act.
    Mr. Cirillo. Yes, sir.
    Mr. Oberstar. Thank you.
    Mr. Mica. Thank you.
    Mr. Coble.
    Mr. Coble. Mr. Chairman, I have no questions. I have been 
plagued today with a rigidly inflexible schedule. I have 
another hearing imminently and I wanted my Chairman to know 
that my absence does not indicate lack of interest. I thank you 
and the distinguished gentleman from Illinois for having 
scheduled this very important hearing, and with that I will 
yield the balance of my time.
    Mr. Mica. Your absence was actually appreciated today.
    Mr. Coble. I appreciate that, Mr. Chairman. Reclaiming my 
time, I did ask for that.
    I yield the balance of my time to the distinguished 
gentleman from Alabama, Mr. Bachus.
    Mr. Bachus. Mr. Chairman, he yielded the balance of his 
time to me too.
    I am a big supporter of Southwest Airlines and also of 
competition and so I do want to ask this question. The FAA is 
charged with air traffic safety, and of course we have been 
spending all our time here talking about the increase in number 
of flights. You said that you could take over 100 new flights 
or more. If I look at what I have read about this agreement, 
you are demolishing gates at Love Field, so why would anybody 
think we are going to have more flights out of Love Field?
    Mr. Cirillo. The study that was done was not based on any 
ground infrastructure. It was just a look-see at what 
additional activity at the airport would produce in the way of 
efficiency.
    Mr. Bachus. But I think realistically--I noticed and I read 
an article where the Mayor of Dallas, Mayor Miller, said they 
were going to demolish a 7-year old terminal with 700 parking 
spaces.
    One of your other charges at FAA is to make sure that any 
airport that receives Federal funding--I guess Love Field 
receives Federal funding, does it not?
    Mr. Cirillo. I don't know.
    Mr. Bachus. I think you probably could assume that it does. 
Assuming that it does, does this agreement--one of the primary 
charges FAA has is that any Federal airport that receives 
Federal funding or any airport that receives Federal funding, 
what it says is, "does not discriminate against airlines by 
aiding one over the other in any way."
    Does this agreement do that or does it exclude another 
competitor?
    Mr. Cirillo. We actually do not have a position on that.
    Mr. Bachus. You are not speaking for the FAA because they 
are legally--that is part of your charge.
    Mr. Cirillo. In this case the legislation is pending and 
whatever the legislation entails, we will comply with that.
    Mr. Bachus. Let me back up and--you are aware that one of 
the FAA charges is to make sure the airlines receiving Federal 
funds do not discriminate against airlines by aiding one over 
the other in any way. You are aware of that provision.
    Mr. Cirillo. Yes, sir.
    Mr. Bachus. Would an agreement that left all the gates at a 
certain airport under the control of two or three airlines, at 
least on its face, appear to violate that discrimination?
    Mr. Cirillo. I don't even want to speculate as to whether 
or not it would.
    Mr. Bachus. Would you if I submitted a written question to 
you in that regard?
    Mr. Cirillo. We would answer the question.
    Mr. Bachus. Thank you. I mean, I am just curious. As you 
all looked at this--and your entire testimony was dealing with 
safety, one of your charges being that this is in the best 
interest of the traveling public. I commend the fact that the 
mayors have gotten together, and the airlines, and made an 
agreement. I welcome that. I think the Wright amendment has 
cost the people of north Texas millions of dollars and I think 
this agreement will save them millions of dollars.
    I think there are things in this agreement that are 
troubling, however, from a competitiveness standpoint, from a 
discrimination standpoint. And I would ask the FAA to look at 
those provisions which cap the number of gates at Love Field. I 
wouldn't worry so much about all these planes being stacked up 
over an airfield where the gates are being capped.
    The other thing is this clause 6. Have you looked at that?
    Mr. Oberstar. Would the gentleman yield? The gentleman 
said--asked the FAA to look at that competition issue. That is 
a DOT responsibility, not FAA responsibility. I think we should 
insist that the DOT, which has competition responsibilities----
    Mr. Bachus. Also the FAA. The FAA, one of their charges, 
Mr. Oberstar, is--the DOT additionally.
    Mr. Oberstar. The DOD will be the venue at which such 
issues will be----
    Mr. Bachus. The FAA and their funding determinations--I 
mean, I am actually quoting from their provision.
    Mr. Cirillo. I would just say that the Wright amendment is 
unique, so to generally speculate is----
    Mr. Bachus. Let me say this. Congress can override the FAA, 
and Congress did that in the case of the Wright amendment. They 
preempted the FAA and their charge and we can do that in this 
case. We can absolutely adopt this and we could override and we 
could actually enact into law something that would shut out 
other airlines from Love Field. Congress has a right to do 
that. We did that in the Wright amendment.
    I am just saying does the FAA--you have come in and talked 
about safety concerns. I am just asking you, one of your 
charges is also to talk about competitive issues, and did you 
want to talk about those?
    Mr. Cirillo. No, I am not here to talk about the 
competitive aspect of this based on where we are.
    Mr. Bachus. I am not trying to put you on the spot. Did you 
hear some of the members talk about clause 6 and some of the 
outlying airports, Dennison, Alliance and McKinney?
    Mr. Cirillo. Yes.
    Mr. Bachus. It seems to me like you have discouraged 
flights into those fields of flight that actually could 
increase the number of flights into Dallas/Fort Worth and 
actually add to the number of flights.
    Mr. Cirillo. We have not done an analysis of the satellite 
airports and not speculated on where the agreement may go 
relative to them. Our analysis was particular to or specific to 
Dallas/Fort Worth and Dallas Love.
    Mr. Bachus. I don't know really anything other than what 
members said, that there were some provisions, and I am sure 
the city--it is one thing if I am mayor, I am going to 
encourage as many people as possible to come in. But I am not 
sure the Congress should enact provisions which in any way 
encourage business to go away from Dennison or Alliance.
    I would just ask the FAA to take a second look and look at 
those provisions and see if they in any way would affect air 
travel or the number of flights and whether there are any 
safety issues there.
    Mr. Cirillo. We will do that.
    Mr. Bachus. Thank you. I yield back.
    Mr. Mica. Thank the gentleman.
    Ms. Johnson from Texas, you are recognized.
    Ms. Johnson of Texas. Thank you very much. Let me first 
comment on my colleague's inquiry there from Alabama. Let me 
assure you that before this agreement, there was not that much 
limitation on the flights coming into Love Field. The 
limitation came when Southwest put them out of business.
    Mr. Bachus. I am sorry, I couldn't hear.
    Ms. Johnson of Texas. The limitation on the flights coming 
into Love Field had to do with Southwest putting them out of 
business by dropping those fares so low they couldn't compete. 
There have been several that tried. But it is a city-owned 
airport, and I believe that the city would have the authority 
to limit flights or to request the FAA to increase them. This 
is an agreement that has been reached because the original one 
asked for Love Field to be closed to commercial traffic.
    Mr. Bachus. I could be under a misunderstanding. I was 
thinking that the agreement capped the number of gates and----
    Ms. Johnson of Texas. That has a lot to do with that 
neighborhood and safety.
    Mr. Bachus. That was the reason for some of my questions. 
The gentleman, I thought he said that it could take hundreds of 
more flights without safety concerns, so that raised the issue 
with me about why are we capping the number of gates. You 
freeze the number of gates that Southwest Airlines has to 16 so 
you--obviously, according to the FAA's testimony today, there 
is no safety reason for that. It apparently is you are--I wish 
they had 30 or 40 gates.
    Ms. Johnson of Texas. We don't.
    Mr. Bachus. Actually, they are going to tear down a 7-year 
old terminal----
    Mr. Cirillo. Just in the interest of being correct, my 
testimony spoke to efficiency.
    Mr. Bachus. I am sorry.
    Mr. Cirillo. My testimony spoke to efficiency. We 
stipulated that we would maintain a safe environment and the 
additional flights were at a level that would affect the 
efficiency of the airport, not the safety of the airport.
    Mr. Bachus. I thought your testimony----
    Ms. Johnson of Texas. Reclaiming my time.
    Mr. Bachus. I thought you said it could accommodate 
hundreds of additional flights into the area.
    Mr. Cirillo. Yes.
    Ms. Johnson of Texas. I suppose that even the testimony 
that I heard about the 80-mile radius, if the population grew 
to the point where there was that much more demand for 
commercial traffic, I imagine we could negotiate that with the 
FAA. It is just really not there. I don't know why all these 
people want to come to Dallas. They can go anywhere they want 
to go without having to come to Dallas. It is a puzzle to me 
why many of them feel that they have to either leave or depart 
Dallas in order to have services of Southwest Airlines. That is 
not the case. But we have a big airport, new as airports go, 
that there are many airlines that could go out there and it is 
ready to receive them. It is ready to receive Southwest.
    But I think in terms of safety from FAA, there was a study 
done in Dallas as well, and these 20 gates really has to do 
with not imposing any more subjection of the people that live 
around there to environmental concerns as well as safety 
concerns. There are about 123,000 students in that general area 
in school and if you want to hear about the intensity of 
feeling about safety in that area, you can go home with me. It 
is in my district. Those voters are, too.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you. Additional members seek recognition? 
Mr. Filner.
    Mr. Filner. Just briefly. Mr. Cirillo, you testified that 
if you needed to, you could put more safety features like this 
RNAV at Love. What would that cost?
    Mr. Cirillo. Actually, it is a combination of procedures 
and use of equipment on board the aircraft, so it is not 
additional technology, for example, our automation or 
communication infrastructure. So it is fairly inexpensive. It 
involves procedural design and training.
    Mr. Filner. So you can add that safety feature at Love 
without any cost, as opposed to redoing procedures.
    Mr. Cirillo. It is a procedural redesign that is fairly 
inexpensive.
    Mr. Filner. Thank you very much.
    Mr. Mica. Any other members seek recognition? If there are 
no other questions of this witness, we appreciate your 
testimony and we will excuse you at this time.
    I now call the second panel. The panel consists of the 
Honorable Laura Miller, Mayor of the City of Dallas, Texas; the 
Honorable Mike Moncrief, Mayor of the City of Fort Worth, 
Texas; Mr. Gerard Arpey, Chairman and Chief Executive Officer 
of American Airlines; Mr. Herb Kelleher, Chairman of the Board 
of Southwest Airlines; and Mr. Kevin Cox, Chief Operating 
Officer and Senior Executive Vice President of the Dallas/Fort 
Worth International Airport.
    I would like to welcome each of the witnesses.

 TESTIMONY OF HON. LAURA MILLER, MAYOR, CITY OF DALLAS, TEXAS; 
 HON. MIKE MONCRIEF, MAYOR, CITY OF FORT WORTH, TEXAS; GERARD 
ARPEY, CHAIRMAN AND CHIEF EXECUTIVE OFFICER, AMERICAN AIRLINES; 
 HERB KELLEHER, CHAIRMAN OF THE BOARD, SOUTHWEST AIRLINES; AND 
 KEVIN COX, CHIEF OPERATING OFFICER AND SENIOR EXECUTIVE VICE 
       PRESIDENT, DALLAS/FORT WORTH INTERNATIONAL AIRPORT

    Mr. Mica. We will start off by hearing from the Mayor of 
Dallas, Texas, Laura Miller. Welcome, and you are recognized. 
You will have to hit that little button.
    Ms. Miller. Thank you, Mr. Chair, and thank you to Ranking 
Member Costello and members of the subcommittee. We appreciate 
being able to testify before you, and now that we have heard 
all of the other comments, we are anxious to answer all the 
questions and try to clarify some of the issues.
    As you have heard, the cities of Dallas, Fort Worth, 
Dallas/Fort Worth International Airport Board, Southwest 
Airlines, and American Airlines are the five parties that have 
reached an agreement among ourselves. All of us have now 
approved that as of last night when Fort Worth approved the 
agreement.
    Much like the agreement that led to the creation of Dallas/
Fort Worth Airport 32 years ago, the agreement represents the 
best that we have in regional cooperation and signals that 
whatever our past differences on Love Field, the cities of 
Dallas and Fort Worth are committed and joined at the hip to 
working together on behalf of our region's future.
    Before I proceed with my testimony I would like to thank 
the entire North Central Texas delegation. They asked us to 
come up with a local solution; we have delivered that. We are 
here to strongly encourage Congress to approve it without 
modification, and we will give you all of those reasons in a 
moment.
    I would also like to thank two members of the subcommittee 
in particular, Representative Eddie Bernice Johnson and 
Representative Kenny Marchant, for their support on this issue 
and for making this hearing possible.
    And I also want to thank, of course, my good friend and 
partner in this endeavor, Fort Worth Mayor Mike Moncrief, for 
his leadership and his dedication in getting this resolved. Our 
city councils and our business communities both participated in 
the work that brought us here today.
    When the congressional delegation asked us to find a local 
solution, it was 4 months ago. The problems were very complex 
and the interests between the parties were extremely 
entrenched. The rift between our two cities has for too long 
kept the fifth largest metropolitan area in America from 
developing its full economic potential, and that is the reason 
that we worked so hard to do this.
    The five parties reached an agreement, and the top three 
things on our minds are the following, number one, to keep the 
third busiest airport in the world strong. It is our economic 
engine for north Texas, DFW Airport. We created it together the 
two city cities and our bond covenants say that the two cities 
shall make sure that we protect that asset.
    Number two, we wanted to protect the neighbors around Love 
Field, the residents and businesses. It is a landlocked 
intercity airport and we have done an enormous amount of work 
in the last 10 years to make sure that we had a balance between 
growth in competition and also the protection of the 
neighborhoods regarding pollution, ground congestion, and 
noise.
    I want the committee to know that we have the gentleman, 
George Vitas, who is the senior person who did the Love Field 
master plan in 2001 that originally recommended 32 gates as 
long as the Wright amendment stayed in place. We updated that 
for purposes of these discussions between the two cities, and 
that number went to 20 because the same consultants looked at 
what is the very best number of gates to have without the 
Wright amendment; if that one variable changed, then how many 
gates would be appropriate in terms of the environment, in 
terms of economic growth, and in terms of operations and 
safety. And that is why the number is 20 and not 17 or 22 or 
25, and that gentleman is here behind me and is able to answer 
a lot of the questions that I heard being posed to the 
gentleman with the FAA if you look in terms of our master plan 
work that we have been doing for the last 10 years.
    Our solution has the support of the committees surrounding 
Love Field, the business community, and the president of the 
Greater Dallas Chamber of Commerce, Erle Nye, who has been 
deeply involved in the process, came to the Hill with us a few 
weeks ago to talk to some of you about the initiative.
    The Love Field Citizens Action Committee, as Congresswoman 
Johnson said, has written letters expressing their support. 
They are very detailed and that has been entered into the 
testimony. This agreement will gradually open Love field to 
allow direct nonstop flight to and from the cities throughout 
the United States in a manner that protects the neighborhoods 
and also enables Dallas/Fort Worth International Airport to 
cement its lead role in our region. It will free Love Field 
from almost 30 years of control and, importantly, allow Dallas 
to move forward in updating the master plan that I referenced.
    The master plan concluded that our master plan goals can be 
fully implemented under the 20 gate limit set by the five-party 
agreement. It maintains the ground traffic noise and air 
quality impacts of the air service that 32 gates with the 
Wright amendment would bring. The 20 gate limit without the 
Wright amendment will also enhance safety and efficiency.
    A few airlines, as you know, have complained that the five-
party agreement would bar new carriers from Love Field. Not so. 
There will be room for new entrants and for new service to 
other destinations from our airport now and after the airport 
is reconfigured.
    Today our airport has 19 gates that are currently in use. 
The solution will increase the current number of operational 
gates from 19 to 20. New entrants are welcome under our 
existing gate-sharing provisions, and that does not change 
under the agreement and we welcome all entrants to Dallas Love 
Field as we do Dallas Fort Worth International Airport.
    We also will be having a much improved airport because of 
this solution. As part of the agreement the city of Dallas has 
agreed to invest between $150 million and $200 million for a 
lot of upgrades at Love Field consistent with the master plan. 
We will fund them using landing fees, space rental charges, and 
passenger facility charges. The investments will improve 
operations, increase safety, improve the traveler's experience 
and boost our airport's bottom line.
    The investments include two components to address safety 
issues which I know were of considerable concern to 
Representative Oberstar. We will be adding 1,000 feet to the 
runway safety areas off the north end of Love Field's two 
parallel runways to bring them into compliance with Federal 
compliance, and we will build a new $8 million public safety 
and crisis management facility that will enhance security and 
emergency response by combining the administrative functions of 
the Dallas Airport Police, Dallas Fire and Rescue, Airport 
Operations, and the controlled access security system in a 
facility that will be separate from the main terminal building.
    We are also committed in this agreement to other 
improvements at Love Field including the expansion of retail 
concession, renovation of the central lobby, a new cargo 
building, renovation of the intersection of Mockingbird Lane 
and Cedar Springs at the entrance to the airport, a new ticket 
wing and pedestrian bridge, renovation of the concourse and 
landscaping.
    We will also fund any construction, renovation, or 
demolition work related to limiting Love Field to 20 gates and 
we will explore construction of a people-mover that will 
directly connect the terminal at Love Field with a planned new 
rail station on the northwest light rail line that is planned 
by our rapid transit agency.
    Mr. Chairman, this landmark agreement represents our very 
best efforts in regional cooperation. It will improve service, 
improve safety, efficiency, in a manner that minimizes the 
impact on the neighborhoods. It will cement Dallas/Fort Worth 
International Airport as the hub of our regional economy and it 
will also, we believe, create enormous air competition and 
lower fares for our consumers.
    We need your help to make it happen. We know we are on a 
very fast timetable and we appreciate your letting us come to 
you so quickly and tell you why this compromise should be 
approved. Thank you.
    Mr. Marchant. [Presiding.] Thank you, Mayor. Thank you for 
your hard work on this.
    At this time it is my privilege to introduce to you the 
mayor of the city of Fort Worth, Mr. Mike Moncrief.
    Mr. Moncrief. Thank you, Mr. Chairman, Ranking Member 
Costello, and Ranking Member Oberstar and members of the 
committee. It is an honor to appear before you as mayor of one 
of the fastest growing cities in the country: Fort Worth, 
Texas.
    Let me first say that I fully understand that your time is 
valuable and I will keep my remarks brief. We deeply respect 
the jobs that you do and we thank you for giving us the forum 
to discuss the significance of this local agreement. The debate 
over the Wright amendment has been long and turbulent, with 
impassioned arguments on all sides.
    It goes without saying that I am delighted to be here in 
support of a proposal that would finally settle this local 
issue which has at times divided our entire region. I am most 
appreciative of my colleague and friend, Dallas Mayor Laura 
Miller, for her partnership, for her support during this 
process. And of course there were times where we agreed to 
disagree, but in the end I am proud that our two cities worked 
jointly towards what was best for our citizens, the flying 
public, the airlines and our airports.
    We also owe a great deal of gratitude to the leadership of 
DFW Airport, American Airlines, Southwest Airlines, for their 
willingness to chart a new path. I especially want to thank 
Senator Kay Bailey Hutchinson who, along with Senator John 
Cornyn, urged us to forge this compromise.
    I also want to express my sincere appreciation to Chairman 
Joe Barton, Representatives Granger, Burgess, Eddie Bernice 
Johnson, you, Mr. Chairman, and the rest of the north Texas 
delegation for your support.
    Although our target was elusive, I believe we produced what 
we were asked to construct by our congressional leaders: a 
local solution to a local problem. In my years of public 
service I have never been involved in more intense, 
challenging, and nonstop negotiations. Each of us spent 
countless hours, days, weeks and months cussing and discussing 
the pros and cons of what we have before you today.
    Our compromise is an example of what happens when everyone 
shares in the pain to make something significant take place. 
All parties here have, what I would like to say, some skin in 
the game. Sometimes the best decisions are the ones where no 
one really gets everything that they want but, rather, where 
everyone walks away at least feeling that the greater good has 
been served.
    Our compromise is a case in point. Ultimately we are 
presenting you with a fair and balanced product. It is an 
agreement that as mayor I can represent to you the leaders of 
Fort Worth firmly stand behind. This is bigger than two cities, 
two airlines or two airports. The settlement affects thousands 
of families. It affects businesses, large and small alike. The 
plan has enormous implications for the Dallas/Fort Worth 
regional economy, which I might add is one of the largest in 
the world, as it will protect countless local jobs and preserve 
the future of our metroplex.
    Our agreement is predicated upon the condition that 
Congress will enact legislation to implement both the terms and 
spirit of this agreement. While we are proud of our 
accomplishments thus far, it will be for naught if Congress 
alters or fails to adopt this compromise as presented. We 
understand the difficult task ahead of you and we are counting 
on you to put an end to this debate for good. If we all do our 
jobs, the provisions of this local agreement will be adopted as 
Federal law and we will have a binding contract between all 
parties. Our local city councils and this Congress can move on 
to other important issues, and this very difficult challenge 
will not be left at the feet for future leaders.
    If we do our jobs, the largest airline in the world, 
American, and the largest domestic carrier in the United 
States, Southwest, can focus their energy on competing in the 
air and not here in the halls of Congress. They can stop 
spending money on lawyers, lobbyists and campaign-style 
advertisements. If we do our jobs, Dallas/Fort Worth Airport, 
our region's most important economic engine and job creator, 
can continue to be the gateway to the world. All Americans, 
your constituents and ours, will ultimately be free to fly 
anywhere in the United States and they can realize a future 
filled with healthy airline competition that will lead to more 
competitive air fares.
    However, should Congress fail to carry through this local 
compromise--sadly, Mr. Chairman, but certainly--everyone, 
including the public, our citizens, will lose. By our presence 
today we, the parties to this agreement, affirm our approval of 
this local solution that was negotiated in the best interest of 
the citizens and economies of the Dallas/Fort Worth metroplex. 
We urge your strong support of our legislative proposal, 
without amendment, and we thank you very much for your time and 
consideration.
    Mr. Marchant. Thank you, Mayor.
    And now I introduce to you the President of American 
Airlines, Chairman and CEO, and one of my constituents, Mr. 
Arpey.
    Mr. Arpey. Thank you all for the opportunity to be with you 
this afternoon to share with you American's perspective on the 
Love Field compromise. On behalf of the more than 90,000 
employees of American Airlines I want to extend our 
appreciation to the committee for its prompt scheduling of the 
hearing today and for its willingness to expeditiously consider 
the proposed legislation regarding the Wright amendment.
    I think it is fair to say that this is a day that many in 
this room believed would never come, including, I must confess, 
myself. The controversy surrounding Love Field and the Wright 
amendment has loomed over American Airlines longer than I have 
been with the company, and I was hired by American nearly 25 
years ago, and I know the same is true for Southwest Airlines. 
But of course, the issue's importance extends far beyond any 
one company. The impact of what this committee decides will be 
felt throughout Texas, the Southwest, and in hundreds of other 
communities around the country.
    Almost 2 years ago this committee's Chairman Don Young 
declared that it was up to the communities in north Texas to 
reach a resolution to the Wright amendment controversy if 
changes in the law were to be made. We were grateful for that 
declaration because it showed a sensitivity to how complicated 
this issue is and how substantial an impact it has both locally 
and nationally. And, importantly, over many years, Ranking 
Member Jim Oberstar has been a consistent advocate of 
maintaining the Wright amendment for reasons of safety, 
efficiency and sound economics, a position that I know carries 
enormous weight with his colleagues on this committee. Many 
other Members of the House, both on and off the committee, have 
vigorously rejected calls for repeal of the Wright amendment. 
Among them, most notably, are Energy and Commerce Chairman Joe 
Barton, Kay Granger, John Sullivan, Michael Burgess and Kenny 
Marchant.
    I think it is very important to recognize that on this 
committee the Representative of the district in which Love 
Field sits, Eddie Bernice Johnson, has been an outspoken 
advocate against repeal, a position and perspective that I hope 
will make a great difference in your deliberations.
    Now I emphasize all of this not to rehash old controversies 
but to make the point that this debate is not between the 
proposed compromise on the one hand and immediate repeal of the 
Wright amendment on the other. Rather, this is all about either 
solving the problem once and for all or returning to the status 
quo with the Wright amendment firmly in place and the battle 
raging on.
    Some airlines who have sat on the sidelines and who have 
had the opportunity for years to fly to Love Field are 
attacking this compromise and proclaiming their sudden and 
heretofore secret desire to operate from Love Field. I would 
urge the committee to reject the attempts of the latecomers to 
be spoilers and to recognize the opportunity at hand by acting 
swiftly to enact legislation. Despite the fact that American 
Airlines strongly endorses this proposed legislation, I have 
made no secret of the fact that my preference would have been 
either maintaining the Wright amendment without change or 
closing Love Field to commercial traffic altogether. This 
compromise did not come easily for us.
    We have made two major concessions to get to this point. 
First, we have agreed to support an immediate repeal of the 
provisions of the Wright amendment that prevent through-
ticketing to Love Field or to points outside the States where 
service is allowed. Second, we have agreed to full repeal in 8 
years. Both of these concessions will be economically harmful 
to American. In return, however, we have been assured that Love 
Field will not grow into a mammoth facility that would cause us 
to split our operations between two airports in such a way that 
both our small community and international service would be 
jeopardized from DFW airport.
    While high-density point-to-point markets can be supported 
from any major airport, it takes the synergies of a robust 
network to support service to smaller communities and to amass 
sufficient traffic in one point to sustain international 
service. Hence, under this agreement DFW Airport can remain a 
viable hub for American. In addition, we will be able to chart 
our future without the uncertainty of what might happen to the 
Wright amendment.
    This is also why dozens of small- and medium-sized 
communities throughout the Nation have rallied to support the 
Wright amendment and why choosing a sensible solution is not 
just good for north Texas but for hundreds of communities that 
depend on a healthy DFW for access to the rest of the world. We 
endorse this solution because it clearly defines the roles of 
the airports in the region and comes with enforceable 
provisions that provide certainty about what service will occur 
at each airport, how large a role each airport will have in 
providing air service for the region, and what level of 
environmental impact will be felt on the neighborhoods in 
schools around Love Field. However, as I think all the 
witnesses today will testify, this is a very delicately 
balanced agreement. Any changes in the proposed legislation or 
the underlying agreement and the contract among the parties 
will clearly undermine this compromise.
    Finally, I would like to reiterate a point I made in my 
testimony last November in the Senate about my colleague and, 
until recently, adversary on this issue, Herb Kelleher. It is 
impossible not to have the utmost respect for the job that Herb 
and his team have done at Southwest Airlines. We admire them 
greatly and we compete with them vigorously, and I know that 
Herb is as delighted as I am that we can now confine our 
battles to the marketplace rather than the halls of Congress.
    I know there is another thing that Herb and I agree upon 
and that is our admiration for the tenacity and effectiveness 
of Mayor Laura Miller of Dallas and Mike Moncrief of Fort Worth 
without whom I would not be here today. In addition to all the 
Members of the House that I noted previously, I would be remiss 
not to recognize the essential role that Senator Kay Bailey 
Hutchinson played in this entire process.
    Again, thank you to the committee for the opportunity to be 
here today.
    Mr. Mica. [Presiding.] Thank you, Mr. Arpey.
    Now it is my privilege to produce Mr. Kelleher from 
Southwest Airlines.
    Mr. Kelleher. Thank you, Mr. Costello, Mr. Oberstar, Ms. 
Johnson, and Mr. Filner. I do not know whether you heard my 
first introduction but I covered all of you I think.
    The 30 years' war waged on the European continent from 1618 
through 1648 is, with respect to its 30-year longevity, 
exceedingly junior compared to the Dallas/Fort Worth Airport 
struggle, a struggle which has been waged in the Dallas/Fort 
Worth metroplex for more than six decades. I have personally 
been involved in litigation, in legislative battles, and in 
cuss fights over Dallas Love Field since 1972, a period of 34 
years. The fact that Southwest Airlines appears before you 
today, appears before you with Fort Worth, appears before you 
with the DFW Airport, appears before you with my highly 
esteemed and much-liked colleague Gerard Arpey from American 
Airlines, and appears before you with the city of Dallas, is a 
miracle. As Congressman Costello said earlier, I made the 
comment at our DFW press conference, if we can all get together 
on solving this issue, then there is hope for world peace.
    Our unprecedented agreement arises from airport 
circumstances which are unprecedented anywhere else in the 
United States of America, and most probably unprecedented 
anywhere else on Earth. Many Members of Congress have over the 
course of many years urged a local resolution of the Wright 
amendment issues. That has now been done. And peace and 
goodwill is the essence of our agreement. Not to mention 
certainty, not to mention stability, and not to mention 
tranquility.
    Under the perseverant leadership of the mayors of Dallas 
and Fort Worth who have literally--and I mean literally--and 
factually worked both day and night to bring this peace pact 
into being, all of our swords are being beaten into plowshares.
    As with any difficult and complicated transaction, 
difficult and complicated by over 60 years of contention, by 
over 60 years of controversy, and by over 60 years of acrimony, 
all sides, all five parties have been compelled to make 
sacrifices to yield on firmly held positions, to moan and groan 
and agonize over decisions and over mutual concessions. The 
only victor, the only sure-fire winner from this agreement is 
the public, the citizens who will now find it easier and far 
less expensive to travel to and from north Texas for both 
business and personal reasons, the citizens who will reap vast 
economic benefits in their communities from enhanced travel and 
tourism at lower costs.
    As Representative Hensarling stated, that is 2 million more 
people traveling a year, saving $259 million a year in air 
fares, and producing $2.4 billion worth of economic benefits to 
their communities in the 8 years prior to the repeal of the 
Wright amendment with through-ticketing and through-service. 
And I should add most emphatically, the public will reap those 
benefits without any cognizable injury whatsoever to DFW 
International Airport or to its far-flung domestic and 
international air service network.
    On behalf of the public we stand shoulder to shoulder with 
American Airlines, with DFW Airport, and with the mayors and 
city councils of Dallas and Fort Worth in urging this committee 
and the United States Congress to speedily approve legislation 
necessary to implement our locally achieved Wright amendment 
compromise which people have been asking for in the Congress 
for at least the last 20 years.
    Thank you for your time. Thank you for your attention, and 
thank you for this speedy hearing before the committee. We 
appreciate it.
    Mr. Marchant. Thank you, Mr. Kelleher.
    And now Mr. Kevin Cox representing DFW Airport.
    Mr. Cox. Thank you, Mr. Chairman, members of the committee. 
On behalf of Dallas/Fort Worth International Airport, I want to 
thank you for the opportunity to testify today. As this 
subcommittee is well aware and as you have heard testified 
earlier, there has been an intense political and public 
relations campaign involving the Wright amendment for many many 
years. However, unlike most campaigns which inevitably end in a 
winner or loser, we stand before you today, united behind a 
single proposal hammered out through intense negotiations and 
delicate negotiations between the cities, the airlines, and the 
airport. After literally decades of fiercely fought 
legislative, legal, and political battles, we are here today 
respectfully asking for your approval and endorsement of this 
locally formulated solution.
    In November of 2004 when Southwest Airlines announced its 
desire to have the Wright amendment repealed in its entirety, a 
significant effort was initiated to assess the impact that 
complete repeal would have on DFW and the north Texas region at 
large. The analysis revealed that an immediate and outright 
repeal was, and is, a direct threat to DFW's financial 
stability, having just invested $2.7 billion in that capital 
development program and having recently lost Delta Airlines as 
a hub operator at our airport.
    In addition, opening Love Field to unlimited growth would 
increase noise, congestion, and emissions for the residents 
that live around Love Field. In an effort to find a balance 
that would permit the repeal of the Wright amendment but 
protect the residents around Love Field and the long-term 
financial viability of DFW Airport, the mayors of Dallas and 
Fort Worth fashioned a local solution which again is a delicate 
balance between all parties.
    The fundamental elements of the solution which require 
congressional action include the following: First, immediate 
through-ticketing, second, that Love Field remain restricted as 
a domestic operation airport; third, this legislation would 
codify a locally sanctioned and established gate limit of 20 
gates for Love Field; and last, all remaining restrictions on 
air service from Love Field would be eliminated 8 years after 
this legislation.
    It is critically important to understand that each of these 
elements of this proposal are interdependent. Certain parties 
have recently raised objections to the proposed solution, 
claiming it results in reduced access to Love Field. The fact 
is that scarce resource provisions of the lease, highlighted by 
Mayor Miller, allows the city of Dallas to require incumbent 
airlines to accommodate these new entrant airlines on gates 
that are not fully utilized. The use of accommodation 
provisions is not unique--is not unique in our industry.
    Today San Diego, Santa Anna, Oakland, Las Vegas, Chicago, 
Midway, Fort Lauderdale and Philadelphia airports, each and 
every one of them have all of their gates leased or under 
permit. For any carrier to access gates at any of these 
airports, it requires the requesting carrier to seek an 
accommodation from the incumbent carrier or the airport 
operator.
    Another airport, Long Beach Airport has a very strict noise 
ordinance that places severe limits on the number of nights 
that can operate from that airport as well. One of the things 
that has not been discussed in addition to the accommodations 
provisions is it is very important to understand today, as 
Ranking Member Oberstar talked about earlier, these two 
airports serve the same marketplace. They are a mere 8 miles 
apart.
    Every carrier has the unimpeded access into the Dallas/Fort 
Worth market today. Even if the carrier could not access Love 
Field through the accommodation provisions, which to date none 
of the objective carriers have even tried, the carriers can 
still access the north Texas market by flying directly into the 
Dallas/Fort Worth International Airport, again a mere 8 miles 
apart. And with Delta's decision to eliminate its hub, DFW has 
excess gate capacity of over 15 gates that are currently 
unleased.
    Moreover, DFW has one of the most aggressive air service 
and city programs in the country. Let me give you an example. 
If Jet Blue were to initiate just three flights a day from John 
F. Kennedy to DFW, Jet Blue would be eligible to receive 
$479,000 in financial incentives which include 6 months of free 
landing fees. The fact is that Jet Blue Airways and any other 
airline has access into the north Texas market today. Any claim 
to the contrary is simply unfounded.
    Mr. Chairman, the city of Dallas and the City of Fort Worth 
have been intense competitors dating back to the early years of 
flight. At the direction of the Federal Government and with the 
financial assistance of Congress, the two parties came together 
to build one of the greatest airports in the world, Dallas/Fort 
Worth International Airport. The leadership on this committee 
challenged our community to develop a local solution. Under the 
leadership of our two mayors we have done just that. We 
strongly urge you to take this local proposal and implement it 
in its entirety.
    On behalf of DFW Airport and the 265,000 men and women 
whose jobs depend upon it each and every day, I respectfully 
again thank you for this opportunity and urge you to support 
this local solution.
    Mr. Mica. I thank you and each of the witnesses for your 
testimony. I just have a quick question. Maybe Mr. Kelleher or 
one of you can answer it. I have concern about tearing down 
gates anywhere when we have infrastructure needs at almost all 
of our airports, particularly in a major metropolitan area like 
Dallas/Fort Worth. Also there is taxpayer money involved in the 
construction of those. I guess part of the plan is to pay back 
some of the money; is that correct?
    Mr. Kelleher. Actually, Mr. Chairman, there is no taxpayer 
money.
    Mr. Mica. There is none?
    Mr. Kelleher. No. It is all paid for by the airlines that 
serve Love Field. So the city of Dallas----
    Mr. Mica. So there is no infrastructure that will come down 
that has any AIP money or Federal money?
    Mr. Kelleher. Well, no, no, no. I don't believe so. And may 
I add something to that?
    Mr. Mica. Go ahead.
    Mr. Kelleher. This reduction in gates came about not 
because it was the strong desire on the part of some of the 
participants, but really came about because of the prior master 
plan done by the city of Dallas that allowed the 32 gates at 
Love Field--provided that most of them were used by regional 
jet aircraft rather than heavier aircraft such as Southwest 
Airlines flies. We ourselves are giving up five gates that are 
our gates as part of this deal. We are going from 21 to 16 
gates. And during that entire period of some 25 years, no other 
carrier ever wanted to come in to utilize those gates. And any 
carrier that is desirous now of serving Love Field can easily 
be accommodated even after those gates come down.
    Mr. Mica. I feel a little bit better that we have no AIP 
money in there. But in the long term with open competition, I 
feel you will have unlimited competition. With real competition 
you will need those gates and more.
    I yield the balance of my time for questioning to Mr. 
Marchant.
    Mr. Marchant. Thank you, Mr. Chairman. I will ask this 
question of all of you on the panel and it was alluded to 
earlier in the testimony in statements given by the other 
Congressmen, but I think that at this point we for the last 3 
weeks have as a group been very much in agreement as a 
delegation on the whole concept of this agreement. Today, 
yesterday, and today, the issue of the 80-mile perimeter has 
come up.
    Can you give us a little background on how that entered 
into the discussion and what your feelings are on that issue? 
Mayor Miller, we will just go in order, that will be fine.
    Ms. Miller. Sure. One of the major issues that we have 
discussed for 30 years at DFW is that we have bond covenants at 
the airport that the city of Dallas and the city of Fort Worth 
are responsible for. As Mr. Cox mentioned, we just did $2.7 
million worth of improvements out there and the bond covenants 
specifically say that the cities of Dallas and Fort Worth will 
do everything possible to make sure that we keep the airport 
healthy and viable and with a strong revenue stream.
    So the purpose of the 80-mile limitation--and it is only a 
limitation in the sense that if carrier service were to be 
requested by any smaller airport within the 80 miles around DFW 
Airport, obviously the mayors of Fort Worth and Dallas and our 
city councils would say, as we have for the last 30 years, we 
would prefer that that air service come to the major economic 
engine that we built 30 years ago, DFW Airport. We have a lot 
of capacity at DFW Airport, just like today we have capacity at 
Love Field with the 19 gates that we currently use. We have 
capacity on the existing gates. It does not mean that McKinney 
or Allen or Frisco or any of those communities can't apply 
tomorrow to get Federal funding to become a passenger service 
airport. They have every right to do that. All we are saying, 
not in the legislation, only in our agreement among the five 
parties, that we will say if that time comes that these 
communities want to start passenger service, that we would 
prefer that it come to DFW airport.
    The second part of that that was alluded to earlier is the 
voluntary restrictions that the parties, American Airlines and 
Southwest, who currently serve Love Field have agreed to. And 
that is that if they decide between now and 2025 to open a gate 
at any of these other airports within 80 miles, that they will 
voluntarily not give up a gate but go from a preferential-use 
gate, which all of our tenants currently have, to a common-use 
gate. And so if they open a gate in McKinney, then they would 
say, if you are Southwest, of our 16 preferential-use gates, we 
now say that one of those will go to a common-use status. If no 
one else wants to come in and use that gate, then Southwest can 
continue to use that gate.
    So we thought that it actually helped us at Love Field to 
create more competition by going to common-use gates which we 
have never had at Love Field. We have always had preferential-
use gates, and until this compromise all the carriers--
American, Continental and Southwest--had preferential gates 
through 2021. We have agreed to extend that to 2028 under this 
agreement.
    Mr. Marchant. Anyone want to add to that?
    Mr. Moncrief. I would only add, Representative Marchant, 
that as Laura indicated, we have the responsibility of those 
bond covenants, and that is something we take very seriously 
and by law we must abide by. It is our responsibility to ensure 
the health and well-being of DFW. That is in the best interest 
of not only our cities but the entire region. And what we were 
attempting to do is not to affect all other airports. And in 
fact, as we visited with the mayor of McKinney and we talked to 
him between you all's votes, he assured us that he felt like he 
could get comfortable with some minor tweaking of the language. 
So it makes it clear what we were trying to do.
    Mr. Marchant. Will that language be tweaked in your 
internal agreement or will you ask for it to be tweaked in the 
legislation itself?
    Mr. Cox. Congressman Marchant, it would be tweaked in the 
legislation. Lest there be any confusion, there are really only 
a few principal elements that we need in Federal law and they 
primarily deal with the things that we are talking about, 
repealing the Wright amendment, through-ticketing, 
international traffic issues. The other issues are really 
contractual agreements between the parties. It was never the 
intent for us to envelop that into legislation that would 
somehow in any way undermine any other airport's efforts, and 
it has led to a lot of confusion. And we feel the easiest and 
surest way to fix that is to make it perfectly clear in this 
piece of legislation that every other airport out there will 
not be impacted by these provisions.
    Mr. Marchant. Thank you, Mr. Chairman.
    Mr. Mica. Thank you. Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you. First let me say 
that in our briefing a few weeks ago, I said then and I will 
say again today, I commend all of you. This was no small 
undertaking to come together and reach this agreement. There 
are in my judgment two issues that have to be examined and 
resolved here. One is the issue of safety and the other issue 
is competition.
    I have several questions. Let me first say that the issue 
of safety has been touched on here today. I think there is a 
lot more to be said concerning that issue, but I want to talk a 
little bit about the competition issue.
    The CEO of Jet Blue submitted written testimony to the 
subcommittee for today. He refers to this, "that the agreement 
is a deal that is even more anticompetitive than the Wright 
amendment it seeks to eventually repeal." so the CEO of Jet 
Blue is asserting here that this agreement is more 
anticompetitive than the existing Wright amendment.
    Let me ask both mayors and beginning, if you would, Mayor 
Miller, you both no doubt know and everyone probably who is 
following this knows that the Dallas Business Journal came out 
with an editorial on June 26 and it says, "Love Betrayed." and 
it says, "Congress should say not only no, but hell no, to the 
Wright amendment compromise proposed last week." and then it 
goes on to say, four or five paragraphs later "The deal would 
make it much more difficult for new airlines to enter this 
market and challenge American or Southwest because it would 
permanently destroy the infrastructure that new competitors 
would need to establish a presence at Love."
    I wonder if you might respond to the concerns expressed in 
the editorial of the Dallas Business Journal.
    Ms. Miller. Sure. Thank you. For one thing, it should be 
remembered that our gate-sharing provisions that we have in our 
current leases with American, Southwest and Continental do not 
change at all with this solution. So today if Jet Blue came in 
and said we would like a gate, we have language in all of our 
leases with our tenants that say we have to make room for that 
new entrant. We have always had that language in our leases and 
that language will not disappear.
    In the last 30 years we have never turned away an entrant 
to the airport, and we have had capacity for people to come in.
    At the request of the committee this morning, we did 
provide a copy of the lease language to use, to look at, to 
read. And we also submitted an airline competition plan for 
Love Field that was executed in 2001, but also in great detail 
goes through the language that is in our leases and makes it 
clear that because we are an airport that receives Federal 
funding and is governed by the FAA and the DOT, that we provide 
mechanisms for new entrants to come into Love Field.
    Secondly, we currently have quite a bit of capacity at Love 
Field. If we were to go to the industry average of about ten 
turns a gate, right now Southwest is at 8.6, American is at 
5.3, and Continental is 6.3. So we would love for Jet Blue to 
come to Love Field and we would love for them to come to DFW 
Airport and we have been courting them for a very, very long 
time. So I am hopeful that they will come and serve the Dallas 
area.
    Mr. Costello. Mayor Moncrief.
    Mr. Moncrief. Representative Costello, I would say that 
different publications will have different opinions. And I 
understand that. And I understand that while the Dallas 
Business Journal might have an opinion that this is not an 
agreement that is in the best interest of the people of our 
region or this industry, I think the Fort Worth Star Telegram 
had a far different view. I am not certain what the Dallas 
Morning News position was, but I also know the Fort Worth 
Business Press strongly endorsed our proposal. And I would say 
to you that if this product were more anticompetitive than the 
Wright amendment, I do not think Mr. Kelleher would be sitting 
here at this table.
    Mr. Kelleher. That is correct.
    Mr. Costello. And we are going to give both Mr. Kelleher 
and Mr. Arpey a shot at the assertion by Jet Blue that it is 
more anticompetitive than the Wright amendment.
    Mr. Arpey.
    Mr. Arpey. Well, I have not seen Jet Blue's comments so I 
do not know exactly what they said.
    Mr. Costello. You pretty well get the gist of it, right?
    Mr. Arpey. The fact that as both mayors have indicated, the 
fact that a Jet Blue has the right tomorrow to begin service 
from DFW Airport to wherever they would like to fly and the 
fact that they can come in under the common-use agreement at 
Love Field and operate within the confines of the current 
Wright amendment gives them the opportunity to come in and 
compete on the same playing field that Southwest has and that 
American has at DFW. So I find it to be a fallacious argument 
that they are making, and the fact that we have never heard 
from this up until this moment suggests to me that there is 
some other motivation here.
    Mr. Costello. Mr. Kelleher, for the record.
    Mr. Kelleher. Mr. Costello, well, Jet Blue released a 
statement that this was a back-room deal, quote/unquote, on the 
part of the American Airlines and Southwest Airlines. There are 
only several things wrong with that assertion. Neither American 
or Southwest were in that back room. The two mayors were, the 
mayor of Dallas and the mayor of Fort Worth.
    And secondly, they indicated that they had supported the 
repeal of the Wright amendment. If that is the case, Mr. 
Costello, it was a very stealthy form of report, since they 
have never voiced a word in favor of repealing the Wright 
amendment. That is why their support never came up on my radar. 
And I called NORAD to check with them as well whether they had 
detected any support for the Wright amendment from Jet Blue, 
and there was none.
    And finally I would like to say that there is nothing more 
anticompetitive than the Wright amendment. That is why we had 
seven gates that we were not able to use at Love Field for 26 
years. If the Wright amendment goes away, you are going to reap 
the added passengers, the fare savings and the economic 
benefits that Representative Hensarling mentioned in his story. 
And to further back up the mayors of Dallas and Fort Worth, if 
Jet Blue wants to come into Love Field, let them come. We got 
room.
    Mr. Costello. Mayor Miller, you indicated in your testimony 
that the city of Dallas has agreed to make substantial 
investments at Love Field as a result of the agreement. I 
wonder if you might elaborate on that.
    Ms. Miller. We have not done any significant upgrades to 
the airport in 30 or 40 years. We did do a brand-new parking 
garage, which is one of the reasons why I know that. 
Congressman Burgess earlier mentioned about the landing fees, 
and we should have, in my opinion, increased the landing fees 
when we incurred the debt from the garage. We did not. 
Management did not recommend that. We subsequently did that to 
cover the capital expenditure on the garage, and now we are 
ready to do a significant upgrade to the entire air field and 
the concourse and we think that is going to be terrific for the 
traveler and terrific for the airport tenants.
    So part of our agreement is that there will be a minimum of 
$150 million spent and a maximum of $200 million spent on the 
items that I read into the record: concourse concessions, 
landscaping, improvements to the entrance, separate security 
facility. And that will be done in the 8-year period that we 
are making these adjustments to not having a Wright amendment 
anymore. So that would be a significant upgrade and will help 
us a lot in terms of safety and consolidate our operations 
which have been rather spread out.
    When we had 60 or 65 gates operational, they were at 
various places in the airport. We will be consolidating that 
and working with Southwest and our other tenants to come up 
with a good plan. So we are very excited about the opportunity 
to do that and to get the commitment from our tenants that they 
are willing to invest that kind of money in our infrastructure.
    Mr. Costello. Mr. Chairman, thank you.
    Mr. Mica. Thank you. Ms. Johnson.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman. 
And let me thank all of the persons who appeared here today. I 
am delighted that we are the recipients of a plan that both 
Dallas/Fort Worth and Love Field and DFW can live with. And 
this is quite an achievement for the area.
    I do want to ask for one more document, unanimous consent 
for one more document to be placed in the record, and it has to 
do with safety. And I think you heard the mayor indicate that 
there would be some improvement in length to the runway. And 
that is appreciated as well.
    I do not really have any questions. What I really would 
like to say is that fairness has been a priority of mine all my 
life. And I did not think it was fair to just ignore that 
commitment. It is like telling me that the Constitution is too 
old and outdated. And so I am delighted that we didn't have to 
go that route any longer. Free enterprise, or whatever kind of 
enterprise, Dallas Love Field is owned by the voters and the 
citizens of Dallas. And I never considered it much of a free 
enterprise, just like the city hall. But I do think that this 
will work if we can get the people in the Congress to cooperate 
with it and I hope we can. If we get everybody in Texas on 
board I think we will be able to convince the rest of the 
Congress.
    I am going to stop, Mr. Chairman, because I have got to go 
to another meeting. The only other subject that gets more 
emotional than this one--redistricting.
    Mr. Mica. Thank you. I think we broke the record today. We 
had three or four hearings, and Mr. Oberstar can document all 
of this, we had three or four hearings on O'Hare that broke the 
hearing record. We are not going to do that, but this broke the 
record on Members testifying. I do not ever recall, and I only 
have 14 years, but we did break that record.
    Mr. Oberstar.
    Mr. Oberstar. We did have more Members during the hearing 
on smoking onboard aircraft.
    Well, well, well. Dear Love Field. Lieutenant Moss Lee Love 
must be hovering over this hearing watching this with great 
interest as his name inches further into eternity with what we 
are doing with this legislation. It should be noted for the 
record that Love Field is, as said earlier, not a small-town 
operation. It generates $2 billion for the Dallas economy. It 
accounts for 24,000-plus jobs. It is a major economic benefit, 
which is why the city decided they wanted to keep it going, 
even after the agreement which Mr. Kelleher was part of the 
negotiating, way back when in the mists of time, in the Najeeb 
Halaby era.
    Again, I listened with great interest as one after another 
seemingly said that we have achieved a delicate balance. You 
heard the panel, it sounded like the committee Chairman and 
Ranking Member of a committee when we just finished a very 
tough bill. And the message that this is a delicate balance 
means do not mess with it; do not tamper with it.
    Well, I think we are going to have to. We have a slot-
controlled airport in which the number of our arrivals and 
departures is limited. Over time those slots acquired value. 
Airlines that had the slots put them on the balance sheet, 
traded them, sold them, leased them, subleased them. And that 
was done by administrative action, not by legislative action of 
the Congress, except in the case of National where there was a 
legislative limitation on the arc within which--the outer 
perimeter of which service is allowed. This will be the first 
gate-controlled airport by act of Congress if we adopt the 
recommendations of our agreement. So it raises some very 
important questions. Will the gates-- first off, Mayor Miller, 
who is the owner of the airport?
    Ms. Miller. The city of Dallas.
    Mr. Oberstar. Does the city of Dallas have an airport 
authority that operates Love Field on its behalf? Does the city 
designate and name the airport operator--or, I mean the 
director?
    Ms. Miller. We have a city manager form of government. The 
city manager hires the aviation director to oversee the airport 
and a smaller airport to the south, Dallas Executive. The city 
manager reports to the city council.
    Mr. Oberstar. OK. Now, under your agreement the gates will 
be leased, is that right, by the airport authority?
    Ms. Miller. Well, it will be leased by the city of Dallas 
to the tenants.
    Mr. Oberstar. Yes. And you are the airport authority. Will 
the lessees accumulate value for those gates? Will they have 
what is called at other airports a majority in interest 
provision standing?
    Ms. Miller. I do not know. Mr. Cox, do you know?
    Mr. Oberstar. Mr. Cox, what do you think.
    Mr. Cox. Congressman Oberstar, first of all the lease is 
already done. Whatever is done in this form of legislation will 
not impact those leases. Those leases exist today between the 
city and the carriers that have them. They have accommodations 
provisions in them that spoke--I guess the point I am trying to 
make is Love Field is not a residual airport like DFW. It is a 
compensatory airport. But the lease provisions allow, as they 
do today, for the city to use those when they have the ability 
to pull them back, so they would not have any more value than 
any other lease provisions that exist in any other airport. It 
is not something that can be traded on the open market. It is 
an actual lease and then they have a grab-back provision that 
allows them to grab it back if there is capacity and a need 
from another carrier.
    Mr. Oberstar. I want to come to that, because there is some 
mushy language here, at least in my reading of it. So incumbent 
carriers will not acquire a vested authority or value over 
those gates no matter what we do with the legislation.
    Mr. Cox. Not any more than they already have today, sir.
    Mr. Oberstar. I think we should make that clear. Is there 
any relationship between the 15 empty gates at DFW and the 
departure of Delta and the 12 gates to be demolished at Love 
Field?
    Mr. Cox. No.
    Ms. Miller. No.
    Mr. Cox. The 20 gates that the city of Dallas came to--and 
I think it is important to understand this, because I do not 
think it has gotten out--is that when the original master plan 
was done, it assumed the Wright amendment was in place; all 
growth associated with that involved regional aircraft. When 
you take the Wright amendment away, the assumption that 
regional aircraft are going to be your growth category goes 
away. As such, they are going to be flying on a larger 
aircraft. As such, you will have less operations and quite 
honestly, we believe, diminish your safety concern that you 
have.
    But what it does in converse is it puts a lot more 
passengers in and around Love Field, and the analysis that was 
done shows that it basically cripples the infrastructure if you 
keep 32 gates. So it found the equilibrium. That is what was 
originally anticipated in the master plan at 32 gates: How much 
stuff can you put in that sack, given the fact that the Wright 
amendment goes away and given the fact that they will be flying 
on larger aircraft? And the equilibrium is 20 gates. That is 
where the 20 gates came from. And it required to get there a 
get-back from Southwest Airlines.
    The other point that I think is lost in part of this 
conversation is the give-back is lease provisions that exist 
but those are not active gates. Those are office spaces and 
have been office spaces for many, many, many years. So the 
reality of it is that there will be some incremental growth, 
and there is capacity at Love Field, but the 20 gates was a 
very scientific number designed to keep the equilibrium so you 
basically do not basically crash the roadway system and the 
noise in and around Love Field.
    Mr. Oberstar. That is very helpful. I have not had any 
explanation of how 12 came to be the magic number, and your 
discussion of regional aircraft is very enlightening.
    Now, in the attachment the accommodation provisions, 
"Lessee does hereby agree to accommodate other airline. Lessee 
says...terminal lease area at such times that will not unduly 
interfere with airlines operating schedule."
    What does "unduly interfere with" mean? Who defines that? 
Is that a term of art? A term of legislative art? A term of 
judicial art?
    Ms. Miller. Well it was crafted by the Dallas City 
Attorney's Office and we understand, since it has never been 
tested, we have never had a conflict; that we should, if we are 
responsible, create a very clear policy using this as the 
template for how we are in real terms going to be executing 
this. This gives us the authority to tell an American or a 
Southwest, you have to make room. But I think that like other 
airports like you cited that have this issue of capacity, we 
need to have a very specific policy in place so that the 
tenants have a clear expectation for how it is going to work 
when the director says we shall make room for Jet Blue and this 
is how we are going to do it.
    Mr. Oberstar. Now, I listened carefully earlier when 
discussion was made of Jet Blue, and Mr. Costello raised the 
issue, and I think Dallas/Fort Worth says we have plenty of 
room for Jet Blue, they can come here. But they may not want to 
come, just as Southwest had no intention of getting into DFW 
and paying those larger landing fees. They are quite happy with 
55 cents a thousand pounds. Right, Mr. Kelleher?
    Mr. Kelleher. Well, Mr. Oberstar, our headquarters is at 
Love Field. We have invested $200 million in Love Field and 
this agreement calls for us to invest another $200 million. So 
it is a little different from the situation that any other 
carrier is in, and we have been the ones that have been 
restricted at Love Field since 1979 by the Wright amendment.
    Mr. Oberstar. I know you have been restricted at Love 
Field, but you have been laughing all the way to the bank as 
well.
    Mr. Kelleher. Well, great service at low fares.
    Mr. Oberstar. That is for sure, and a monopolistic 
position. And in case of a conflict, lessee shall have 
preferential use of its terminal lease area. If you combine 
rather vague language about "unduly interfere with" and section 
4(a), "in case of a conflict, lessee shall have preferential 
use of both," now American and Southwest are in the catbird 
seat. You keep anybody out.
    Mr. Cox. Can I respond to that?
    Mr. Oberstar. Anyone can respond to that.
    Mr. Cox. Congressman Oberstar, first, the way the language 
is drafted I believe provides the city of Dallas greater 
flexibility than the standard language that is drafted. 
Typically you find in those leases that if you are turning your 
gates at six times a day, then it is considered fully utilized 
and nobody else can get in. The way it is drafted, I believe, 
provides the city of Dallas a greater hammer to force an 
accommodation than most other places that would allow that.
    The other thing is, I would argue the difference is that 
Southwest has been there for a long time and has an asset of 
which they lease. Jet Blue does not. Nobody has ever guaranteed 
access into an airport, as evidenced by all the other airports 
that I talked about, but they are guaranteed access into the 
marketplace. And 8 miles down the road, Jet Blue can fly 
basically for free for 6 months, and we believe that is a good 
deal. And we believe nobody is guaranteed access to any 
particular airport but should have access to the marketplace. 
And with great capacity and an extremely generous air service 
incentive plan, after multiple meetings with Jet Blue we think 
they can make the right business decision. If they really want 
to enter the marketplace, they can.
    Mr. Oberstar. Well, Southwest was presented with a good 
business decision in 1991 when we had the hearing and Kevin 
Fahey said we can have 18 gates in 3 weeks for Southwest and we 
can have a temporary basis and we can have permanent gates in 
18 months. And Mr. Kelleher thought that was not as good of a 
deal as he was ready to take.
    Mr. Kelleher. No, again because we do not want to split our 
operations in our home city, and there are very few airlines, 
including American Airlines in Chicago, if I may say that, 
Gerard, that want to split their operations between two 
airports in the same city. That is the reason why American does 
not serve Midway Airport, Southwest Airlines does not serve 
O'Hare Airport, and that is why the other spoke carriers do not 
want Peotone Airport because it would be a horrible situation 
from Southwest Airlines' standpoint to have its headquarters, 
all of its investment at Love Field take half of that service, 
send it to DFW Airport and suddenly have the two airports 
competing against one another in the hands of the same carrier. 
That is not true of Jet Blue or anyone else that wants to come 
in.
    Mr. Oberstar. Let's understand something a little further. 
At O'Hare when an international agreement is reached between 
the United States and another country in a memorandum of 
understanding or an aviation trade open skies agreement, and it 
calls for service into O'Hare for whatever, five, six or seven 
slots, American and United both are told you will provide 
slots. I do not know if you still have sales of slots, but you 
have to sell them, and then you have to go and find other 
opportunities to replace your lost slots. But this is the U.S. 
DOT telling you and United you give up space so an 
international competitor can come in.
    Now, supposing JetBlue makes the decision and we want to 
come in and we want to get in the Love Field game, too. Who is 
going to tell you, Mr. Kelleher, you have got to give up space 
to accommodate them?
    Mr. Kelleher. Well, first of all, there is no international 
treaty that pertains to Love Field that sets aside the local 
situation with respect to the proprietorship of the City of 
Dallas and how many gates it wants to have.
    Now, let me say this to you, Mr. Oberstar, if I might, the 
biggest impediment and hindrance to Southwest Airlines' 
expansion after deregulation in 1978 was not being able to get 
gates at other airports, whether you are talking about San 
Diego or Los Angeles, or whatever might be the case. And that 
was because they had exclusive use leases where one carrier had 
14 gates with five departures a day and said, well, if we do 
all your ground handling charging you three times as much as 
the city charges us, you can get in.
    What is my point? Everybody suffers from trying to get into 
an airport where there are not a lot of available gates. But 
the situation has improved today because airports haven't 
gotten rid of their exclusive use leases, which is the ones 
that we ran into and now have these preferential use leases 
where there is room for another carrier. And it is very simple. 
There is no mystery to the way it operates, and that is, I can 
show you Southwest Airlines schedule, gates schedule, we have 
got hours on our gates where another carrier could operate 
there, and that doesn't have anything to do with American or 
Continental Airlines either. And we would simply be told by the 
City of Dallas, you have got these vacant spaces in your gate 
utilization and by golly you are going to put another carrier 
in there.
    Mr. Oberstar. They would be able to tell you that?
    Mr. Kelleher. That is the way it works, oh, yes absolutely.
    Mr. Oberstar. Well, the problem you defined just a moment 
ago in your remarks is why I included in the 2001 
reauthorization of FAA a requirement that every airport have a 
master plan included showing their competition the plan.
    Would the parties agree to a legislative provision that 
would give FAA authority to take all necessary actions to 
ensure that carriers seeking to initiate or expand service at 
Love Field have access to necessary facilities on reasonable 
terms? Provision could apply if FAA determined that new 
entrants are unable, as you have described moments ago, Mr. 
Kelleher, to obtain access under the procedures of this 
agreement?
    Mr. Kelleher. I will respond to that, if I might lead off, 
I am sure the mayors have some comment about it, but, if that 
were the case, then this agreement is a nullity because it is 
absolutely essential to the cities of Dallas and Fort Worth for 
a variety of reasons that the airport be limited to 20 gates, 
of which we gave up 5.
    And if that went down the tube, then I am afraid there 
wouldn't be any agreement at all because certainly, American, 
Airlines and DFW, one of their interests, Mr. Oberstar, is not 
jeopardizing the status of DFW. So having a total of 20 gates 
is what assures that? Because the gates limit the operations 
that you can have from Love Field.
    Mr. Oberstar. The language I am talking about would not--
well, we can make it clear that the FAA could not require an 
increase in gates.
    Mr. Kelleher. You are saying the FAA could take gate leases 
away?
    Mr. Oberstar. To take necessary action to ensure that 
carriers have access to necessary facilities.
    Mr. Kelleher. Well, would you apply that to Long Beach, 
California where JetBlue has 27 out of 35 available slots? 
Would you apply it to Washington National? Would you apply it 
to all airports across the Nation? And the reason I ask is that 
is that that could be very helpful to Southwest airlines.
    It if were a general application.
    Mr. Oberstar. But there are other ways in which access can 
be obtained at Washington National.
    And, I don't know about Long Beach. That might be an 
interesting--but they don't have the two airport scenario that 
we are dealing with here.
    Mr. Kelleher. No they have the 41-slot scenario.
    Mr. Oberstar. They do. Mr. Arpey.
    Mr. Arpey. Mr. Oberstar, I think that perhaps we haven't 
explained it as artfully as we should have, or carefully as we 
should have, but I think in the agreement that we have created, 
we are doing precisely what you are asking for, and that is, 
that if any airline wants to come in and operate at Love Field 
on the same terms and conditions that American, Southwest and 
Continental operate today, this agreement says that the City of 
Dallas is going to make that happen as part of this agreement.
    So I think we have recognized your concern as we negotiated 
our way through this, and so I think the current agreement does 
what you are suggesting.
    Mr. Oberstar. The language of the current agreement is to 
the extent a new entrant carrier seeks to enter Love Field, the 
City of Dallas will seek voluntary accommodations from its 
existing carriers to accommodate the new entrant's service. 
There is no enforcing mechanism.
    Mr. Moncrief. But that is the first thing they do, Mr. 
Oberstar, they seek voluntary response from the other carriers. 
If they don't do that, then the City of Dallas has the 
authority to come in and say you will.
    Mr. Oberstar. It goes on to say if its carriers are not 
able or not willing, the City of Dallas agrees to require the 
sharing of preferential leased gates.
    But what is the--but it says this, agrees to require the 
sharing of preferential leased gates, but then you go back to 
the attachment to the accommodation, it says in the case of a 
conflict between schedules of lessee and the requesting 
airline, the lessee shall have preferential use. So you require 
on the one hand, but you vitiate it on the other.
    Mr. Cox. Mr. Chairman, that, I mean, ranking member, that 
is not different than virtually every other accommodation lease 
that exists out there in the country.
    Mr. Oberstar. We will take a look at that and see if that 
is the case.
    Mr. Cox. You have the ability to accommodate, but you don't 
take rights away from somebody that had already contractually 
obtained those rights, but you have the ability to try to, to 
the extent possible, to fit those people in.
    Mr. Oberstar. That is true in a majority of interest 
clauses.
    Mr. Arpey. I would like to add, though, on the JetBlue 
issue, and we can start with the first provision and American 
will volunteer today to open up gate space for JetBlue at Love 
Field.
    Mr. Kelleher. Tell them to come on down. We welcome them 
too.
    Mr. Oberstar. They are just a metaphor for some other 
carrier, they happened to submit statement.
    One question, you said there will be room for expansion and 
you cite the number of safety provisions, including one I am 
very happy with, the runway safety area, you are going to spend 
$150 million, 150, $200 million for improvements where is that 
money coming from? Is that going to come from increased landing 
fees? From PFCs.
    Ms. Miller. It is a combination. We have discussed that.
    Mr. Oberstar. AIP funds?
    Ms. Miller. It is a combination. We will apply for PFCs for 
things that are eligible, whatever is not eligible, by PFCs, we 
will increase landing fees, but we have made it clear that 
those are the items that need to be upgraded, and that is what 
we estimate it will cost.
    Mr. Oberstar. Will landing fees go up from 55 cents?
    Ms. Miller. Yes, they will. They have to if you do that 
much of an upgrade.
    Mr. Kelleher. Mr. Oberstar, can I clarify something? In 
connection with an earlier comment--not your comments--but 
there was an error made by one of the representatives who said 
the taxpayers of the City of Dallas are suffering because the 
landing fees are not high enough at Love Field.
    Love Field has a $40 million surplus, which has been paid 
in by Southwest Airlines and there is not a taxpayer dollar of 
anyone in the City of Dallas that goes into Love Field.
    It is a free, free enterprise fund for the City of Dallas 
with no Dallas taxpayer dollars in it, yesterday, 20 years ago, 
or the next 20 years.
    Mr. Oberstar. I noted that comment earlier and your 
clarification just raises a question I wanted to ask, and then 
I will conclude, Mr. Chairman.
    And Mayor Miller, does the City of Dallas back the airport 
with the general obligation authority of the city?
    Ms. Miller. No. It is an enterprise fund, and therefore it 
is only, what backs it up is just the tenants paying their 
rents and paying the landing fees and concession and parking 
revenues. That is what pays----
    Mr. Oberstar. It has, the airport has a surplus of 
operational funds now, but if it should run a deficit that is 
the airport's problem, the city doesn't come in and back it up 
and bail it out?
    Ms. Miller. That is correct. We simply would raise the 
landing fees to cover it or raise the concessions or parking 
fees or whatever it took to cover the problem.
    Mr. Oberstar. Thank you. I know I have gone on at length. 
But it has been good. These are important questions to pursue.
    Mr. Mica. I always swore if I ever got to be chairman, I 
would let everyone have their say.
    Why did I do that?
    He was always fair to me so, you know, you get it in 
return. To the two mayors, never serve on a city council with 
435 members.
    Mr. Filner.
    Mr. Filner. Just very briefly as someone standing between 
adjournment--as a Californian, watching the Texans, I am very 
impressed with the product, although, Mayor Moncrief, you 
almost ruined it when you said they can stop spending money, 
that is the airlines, on lawyers, lobbyists and campaign style 
advertisements. You are striking at the economic engine of this 
city.
    Mr. Moncrief. I know I am striking at the heart, Mr. 
Chairman.
    Mr. Filner. You don't want us to hurt your economic engine.
    Mr. Kelleher, bottom line, if I wanted to fly Southwest 
from San Diego to Dallas, do I still have to go through Austin? 
And what does the through ticketing do for me?
    Mr. Kelleher. No. Under this revision, Mr. Filner, you 
would be able to fly from San Diego to some point within the 
Wright amendment states, stay on the airplane and come through 
to Dallas. So you might come San Diego El Paso Dallas which 
would make it a little easier for not only you, but 2 million 
additional passengers.
    Mr. Filner. So I would not have to change airplanes?
    Mr. Kelleher. No, you would not have to change airplanes.
    Mr. Filner. While I have you, last question, what advice do 
you have for us in dealing with both North Korea and Iran?
    Mr. Kelleher. Well, I will tell you, I am got not going to 
give that to you unless this bill goes through.
    Mr. Filner. Yield back, Mr. Chairman.
    Mr. Mica. That is five-party talks. This is six-party 
talks.
    And you see the controversy, well, you have heard the 
controversy I have cited. I guess you are in the league with 
O'Hare, but Mr. Filner is no shrinking violet. If you want to 
really get into controversy go down to southern California and 
hold a hearing on moving San Diego Airport. That is good for a 
couple of days.
    Mr. Filner. Would you come down, all five of you to San 
Diego, Lindbergh needs replacement and we can't figure out what 
to do.
    Mr. Kelleher. It is that noose that is hanging there that 
worries me a little bit when you make a presentation.
    Mr. Mica. A couple of final things, now last time I went, 
Mayor, how long have you been Mayor of Dallas?
    Ms. Miller. 4 years.
    Mr. Mica. I followed your commuter rail and light rail. You 
actually all got some of the money when central Florida went 
down the tubes and you did a great job. I followed that 
project. And I am really impressed with what you have done with 
both commuter rail and light rail. I saw you bringing in a plan 
to bring in some transit to, if it was not at Dallas when I 
visited, it is not there now?
    Ms. Miller. Well----
    Mr. Mica. Or Love.
    Ms. Miller. Well, we have one line that goes through Dallas 
northeast to Southwest, we are going to cross it with a brand 
new line that will go by Love Field. We asked, actually, to 
connect it directly to Love Field and we were turned down by 
the Federal Government. They said that there weren't enough 
passengers to justify.
    Mr. Mica. And we need to change that.
    Mr. Kelleher. That was because of the Wright amendment, Mr. 
Chairman.
    Mr. Mica. But we really need to look at that. We do. And it 
is a chicken-or-egg kind of thing, which comes first and people 
will use it. But we should almost have a requirement that any 
of our major transportation aviation facilities are connected 
by mass transit.
    I will be glad to look at that.
    I know you have sort of thrown in the towel, which I think 
I just read about this this past week, but I am very, very 
impressed with what I have seen down there.
    That was the one thing that I was concerned with. And we 
might want to revisit that. I will ask the staff, too, to see 
if we can talk to folks about that.
    And I don't mind reaching PFC or other money to make the 
connection.
    And I see that is something you were looking at.
    Ms. Miller. Just so you know, because we couldn't get it 
direct to Love Field, it is going to be just west of it about 
half mile, 3 quarters of a mile. So what we are going to build 
is hopefully a very slick people mover when you get on the 
train at Love, feel kind of like when you get to Vegas, you go 
on the train and when you get off and you will be at the DART 
station. Obviously, we would love to build a terminal at Love 
Field and have direct service.
    Mr. Mica. Again, I think the connection is so important. I 
am sorry, Mr. Oberstar.
    Mr. Oberstar. Mr. Chairman, I am delighted with your 
comment about using PFC funds to bring transit on to airports. 
That was a bitter battle in 1990 in this committee, and among 
the airports and users. And I was very much in favor of 
allowing the use of PFC.
    Mr. Mica. We have worked on some of these across the 
country. That is one missing, and they have done some creative 
things I think you are familiar with, Newark and some of the 
things that were done up there.
    In any event, that was one question. I don't want to 
prolong this.
    The final question, you have got two articles here, 17 
provisions in here, in the first article. If we repealed the 
Wright amendment, why couldn't you Institute through an 
agreement all of the provisions in these articles?
    Mr. Cox. Mr. Chairman, we believe that in about five 
particular provisions are all that is required of this Congress 
to allow the agreement to go forward.
    Mr. Mica. So are they in conflict with Federal law and 
which ones?
    Mr. Cox. No, sir.
    Mr. Mica. Then why couldn't we repeal the Wright amendment? 
I mean, there are people cutting these kind of deals all the 
time around the country.
    I have seen mish-mashes of this across the country.
    What authority do you need other than the repeal, and which 
five articles or what are those?
    Mr. Cox. The basic elements that need to be in the pieces 
of legislation include the through ticketing provision, because 
that is the amendment to the existing.
    Mr. Mica. That is not in conflict with law?
    Mr. Cox. No. It is the Wright amendment, today, that 
prohibits through ticketing and that would allow through 
ticketing.
    Mr. Mica. There is one.
    Mr. Cox. You need to, pursuant to this agreement, ensure 
that Love Field remains a domestic airport and it does not 
become an international airport. And that is a Federal 
legislative issue.
    Mr. Mica. But can that also--is that prohibited now? Or 
is--that is a designation, though, that you obtain from the 
Federal Government without a change in law.
    Mr. Cox. Correct, but part of this deal is that Love Field 
will never be opened up as an international airport given all 
of the investment. And so to ensure that some future Congress 
or some future administration doesn't go and decide----
    Mr. Mica. Well, that is only as good as the next one 
because we are going to pass open skies, and I will be flying 
planes from places you never imagined in Europe into Love Field 
and Dallas. Next, go ahead.
    Mr. Cox. The third is----
    Mr. Mica. You would be surprised what we could get in 
there.
    Mr. Cox. It is a 20-gate limit. We believe, as Congressman 
Oberstar indicated, to ensure that this remains limited, which 
is a critical element of this entire deal that that needs to be 
codified.
    The fourth issue is repeal. And the fifth issue----
    Mr. Mica. We are putting in law now, what codification?
    Mr. Cox. Codifying the local 20-gate limit. That is 
absolutely critical.
    Mr. Mica. What was your term, gate.
    Mr. Oberstar. Control.
    Gate limited.
    Mr. Mica. There is a better one, the press has probably 
already got it. So we are putting into law, codifying into law. 
But couldn't you do that anyways?
    Mr. Cox. We believe that we probably could.
    Mr. Mica. Competitive. You would probably be sued. So this 
is your cover?
    Mr. Cox. Correct. The fourth issue is actual repeal and 
then the fifth issue is charters. And the charter issue, as 
exists in the Wright amendment today, limits the amount of 
charters into and out of Love Field to 10 charter flights a 
month.
    Mr. Mica. You could do that yourself?
    Mr. Cox. We cannot.
    Mr. Mica. You can't? Why?
    Mr. Cox. Because we can't restrict particular use.
    Mr. Mica. You can't restrict----
    Mr. Cox. Because the way it exists is we can control the 
gates, but we can't control somebody else that has access to 
the airport to start chartering flights to wherever they want 
to and undermine the 20-gate limit, and we cannot restrict 
certain flights in operation. We can restrict the size and 
capacity of the airport.
    Mr. Mica. I have to check with staff, because I don't 
really know whether, you know, you can----
    Well, again, I appreciate your going through that. I have 
not really even read the totality of the agreement, but trying 
to figure out, what needed to be codified and what could be 
done, because I want to keep it as simple as possible.
    And I think you would do, too, and whatever we do here, 
folks, can be undone. I will be replaced by someone soon to the 
applause of many, and there will be new faces here doing this, 
and when we do, now will be changed.
    That is all I have. Mr. Chairman, ranking member.
    Mr. Brown, welcome. Did you have any questions, comments?
    Mr. Brown?
    Mr. Brown. No, Mr. Chairman, I am just sorry I was a little 
bit late, but we have been following it sort of from a 
distance.
    Mr. Mica. That means everything. And again your absence has 
been appreciated. We want to note it for the record. There 
being no further business before this subcommittee we 
appreciate all of our witnesses and their participation. This 
subcommittee hearing is adjourned.
    Thank you.
    Mr. Kelleher. Thank you, Mr. Chairman.
    [Whereupon, at 5:50 p.m., the subcommittee was adjourned.]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]





</pre></body></html>
